<html>
<title> - THE WIND RIVER IRRIGATION PROJECT</title>
<body><pre>[Senate Hearing 112-170]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-170
 
THE WIND RIVER IRRIGATION PROJECT--ISSUES ARISING FROM AND CONTRIBUTING 

                                  TO 

       DEFERRED MAINTENANCE AND OTHER PROJECT MANAGEMENT PROBLEMS

=======================================================================



                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 2011

                               __________

         Printed for the use of the Committee on Indian Affairs





                  U.S. GOVERNMENT PRINTING OFFICE
70-860                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      0COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. AKAKA, Hawaii, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN HOEVEN, North Dakota
MARIA CANTWELL, Washington           MIKE CRAPO, Idaho
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Loretta A. Tuell, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 20, 2011...................................     1
Statement of Senator Barrasso....................................     1

                               Witnesses

Anevski, John, Chief, Division of Water and Power, Bureau of 
  Indian Affairs, U.S. Department of Interior; accompanied by Ray 
  Nation, Deputy Superintendent for Trust, Wind River Agency and 
  Karl Helvik, Rocky Mountain Regional Irrigation Engineer.......     4
    Prepared statement...........................................     7
C'Bearing, Sandra, Co-Chair, Water Resource Control Board, 
  Northern Arapaho Tribe.........................................    80
    Prepared statement...........................................    83
Collins, Gary, Wind River Irrigation Project Water User..........    76
    Prepared statement...........................................    78
Cottenoir, Mitchel, Acting Tribal Water Engineer Director, Wind 
  River Water Resources Control Board, Eastern Shoshone Tribe....    22
    Prepared statement with attachments..........................    24
Glick, Clinton, Rancher; Wind River Irrigation Project Water User    71
    Prepared statement with attachment...........................    73
Martel, Hon. Wesley, Co-Chairman, Eastern Shoshone Business 
  Council, Eastern Shoshone Tribe of the Wind River Reservation..    14
    Prepared statement...........................................    16
O'Neal, William, Wind River Irrigation Project Water User; 
  Member, Crowheart Bench Water Users Association................    68
    Prepared statement...........................................    70
Trosper, Kenneth J.T., Member, Wind River Water Resources Control 
  Board, Northern Arapaho Tribe..................................    61
    Prepared statement...........................................    63
Willow, Hon. Norman, Council Member, Northern Arapaho Business 
  Council, Northern Arapaho Tribe, Wind River Reservation........    19
    Prepared statement...........................................    20

                                Appendix

GAO (February 2006) report, entitled ``INDIAN IRRIGATION 
  PROJECTS--Numerous Issues Need to Be Addressed to Improve 
  Project Management and Financial Sustainability''..............    89
Goggles, Owen, Northern Arapaho Tribal Member and Honored Vietnam 
  Veteran, prepared statement....................................   163
HKM (July 2008) final report, entitled ``Engineering Evaluation 
  and Condition Assessment--Wind River Irrigation Project........   142
Leonardi, Edward, President, Double L Ranch, Inc., prepared 
  statement......................................................   164
Norwood, Tom, prepared statement.................................   169
Parkhurst, Ray, prepared statement...............................   170
Steward, Hon. Jeb, U.S. Representative from Wyoming, letter, 
  dated May 4, 2011..............................................    87
Weber, Brett, Edna, Lori, and Russell, prepared statement........   165


THE WIND RIVER IRRIGATION PROJECT--ISSUES ARISING FROM AND CONTRIBUTING 
     TO DEFERRED MAINTENANCE AND OTHER PROJECT MANAGEMENT PROBLEMS

                              ----------                              


                       WEDNESDAY, APRIL 20, 2011


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                       Riverton, WY
    The Committee met, pursuant to notice, at 10 o'clock a.m. 
in the Robert A. Peck Arts Theatre, Central Wyoming College, 
Hon. John Barrasso, Vice Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Good morning. Welcome one and all to this 
incredible center. I am thinking back over the last decade or 
so about the number of very significant events that have been 
held here on this campus, specifically in this very room. I am 
so grateful that President Joy McFarland allowed us to come 
here today for this hearing.
    This is a Senate Committee on Indian Affairs field hearing. 
I'm John Barrasso, the Vice Chairman of the Committee. Dan 
Akaka who is from Hawaii is the Chairman of the Committee. We 
work closely together in a bipartisan way to try to find 
solutions for problems, and it's a privilege for me to work 
with him. He has allowed me to come and do this hearing today 
in my home state. He's back in his home State of Hawaii and was 
unable to join us today. As you know, we're out on recess this 
week so I'm traveling around the state of Wyoming, but I've 
heard from a number of members of our legislature about issues 
and wanted to come and hold this hearing today.
    So I want to welcome everyone to the hearing, which is 
entitled, ``The Wind River Irrigation Project--Issues Arising 
From and Contributing to Deferred Maintenance and Other Project 
Management Problems.'' I want to begin by thanking all of our 
witnesses for coming today, not only for your willingness to 
attend the hearing but also for taking the time to prepare and 
submit the thoughtful written testimony. All written 
testimonies will be part of the permanent hearing of record.
    Our capable staff is here, as well, from the Indian Affairs 
Committee both representing the Republicans as well as the 
Democrats, so that this is a bipartisan staff event as well. We 
have a full-time Fremont County resident, Travis McNiven, who 
works on my staff in my Washington office. Travis is well-known 
to many of you. If you haven't had a chance to know Travis or 
his family, I recommend that you do so and maybe get his direct 
phone line so that if there are specific issues in Fremont 
County, and there are ways we can be helpful, Travis is the guy 
to get in touch with. We see each other multiple times every 
day in Washington, and we want to be helpful in any way we can.
    I plan to keep my opening statement relatively brief so 
there will be time to hear from all the witnesses. We have 
three separate panels today, as well as some time for me to ask 
questions.
    I want to go into a little bit of the history surrounding 
the Wind River Irrigation Project. I think many of you know the 
history, but for some that don't, it's specifically for the 
record today. Located on the Wind River Indian Reservation, 
home of the Eastern Shoshone and the Northern Arapaho tribes, 
the earliest phases of the Wind River Irrigation Project dates 
back to the 1870s. Construction of this irrigation system 
continued from 1905 until 1926, but the system was never 
completed to the full extent it was planned. I mean, it's a 
fascinating history when you go through all of this. So like 
many Indian irrigation projects around the country, the Wind 
River project is not new. And as all of you know, it is not 
modern.
    Now today about two-thirds of the project serves the two 
Wind River tribes or their allottees, and the remaining one-
third serves non-Indian irrigators. Of the 51,000 acres that 
were authorized for irrigation, currently only about 38,000 are 
assessed for operations and maintenance. The Wind River Project 
is ``revenue generating,'' and in theory is supposed to be 
self-sustaining, and we have studies and documents on all of 
those issues.
    Now, there are 15 other of these revenue generating Indian 
irrigation projects across the United States. There was a 
report from the Government Accounting Office issued about five 
years ago on the Reservation, and it says that here, on Wind 
River, there is a gap between the theory and the reality. The 
annual assessments do not cover the full cost of operations and 
the maintenance. Well, as this gap between theory and reality 
has existed, not just last year or the year before but for many 
years, and has resulted in a very significant accumulation of, 
as you know, deferred maintenance, and that is contributed to 
less than optimal system management. The Wind River Irrigation 
Project was intended to be a central component for the 
reservation economy, and when you go back and read the history 
from the 1800s, that was what the design and desired intent 
was, to be a central component of the reservation economy. 
Despite some of the shortcomings that we're going to hear about 
this morning, it still is to this day a very important source 
of income and economic development. This project delivers much-
needed water for the agriculture economy, farmers and their 
crops, ranchers and their livestock. The problem is that it 
falls significantly short of its potential, and some recent 
government reports do not describe what I see as a positive 
trend.
    The conditions of the Wind River Irrigation Projects and 
other BIA irrigation projects around the country have been the 
subject of recent Inspector General and Government 
Accountability Office reports. The Government Accountability 
Office issued a report in 2006, which I have here, detailing 
many deficiencies in the BIA irrigation projects, and the Wind 
River was one of the projects that was studied for the report. 
So I'm going to make that 2006 GAO report part of the hearing 
record, because its findings and its recommendations mark 
important points of reference for future trends. The report 
made what I call a preliminary finding that the cost of 
deferred maintenance at that time was over $84,000,000.
    Now, in 2008 they did a condition assessment, the BIA, the 
Bureau of Indian Affairs, and revised this figure downward to 
almost $34.8 million for remediating the identified 
deficiencies of the project; still an incredibly large number. 
So even if this figure is more accurate--and I'm not sure that 
it is--then this is still a lot of money. One byproduct of 
significant deferred maintenance is that it can exacerbate a 
revenue generating problem which in turn can lead to still more 
deferred maintenance. Thus, over time, deferred maintenance can 
threaten a project's long-term sustainability.
    The Government Accountability Office made other findings 
about irrigation project management besides just that of 
deferred maintenance. One of the things they talked about is a 
lack of technical expertise to support the projects and failure 
to adequately involve the project stakeholders; that is, you in 
this audience, the water users in the decisionmaking about the 
projects. One of the most ominous findings in the GAO's 2006 
report was that the BIA had no long-term plan to address these 
issues. Let me repeat that: The finding in 2006--it's now 
2011--was that the BIA had no long-term plan to address these 
issues. In its report, the GAO recommended that the Bureau of 
Indian Affairs conduct a complete condition assessment to 
determine the long-term sustainability of the project. And in 
2008, the BIA completed the, quote, ``condition assessment'' 
for the Wind River Irrigation Project that I mentioned. Its 
assessment echoed several of the findings of the 2006 report. 
Most disturbing was that several diversion dams were given 
``critical deficiency'' ratings and were recommended for 
replacement. So critical deficiencies were recommended in 2006 
for replacement. Now, as defined in this assessment, a critical 
deficiency rating means that the feature will pose a threat to 
the health and/or safety of the user which may occur within two 
years or that an advanced deterioration hazard will result in 
the failure of the feature if not corrected within two years. 
This was a report that was over two years ago. So the 
implications of these deficiencies goes beyond inefficient 
irrigation. Hopefully, we'll hear from the department this 
morning in how it intends to turn these problems around.
    At this point, I'm going to introduce the witnesses, and we 
have three separate panels. Panel one, we have John Anevski, 
the Chief of Division of Water and Power. He'll be accompanied 
by Ray Nation, who's the Deputy Superintendent for Trust at the 
Wind River Agency, and Karl Helvik, the Rocky Mountain Regional 
Irrigation Engineer for the Bureau of Indian Affairs.
    On panel two, we'll hear from Wes Martel, who has a 
powerpoint presentation and who is Co-Chair of Eastern Shoshone 
Business Council for the Eastern Shoshone Tribe, followed by 
Norman Willow, Council Member for the Northern Arapaho Business 
Council for the Northern Arapaho Tribe. Mike Cottenoir will 
testify on behalf of the Wind River Water Resource Control 
Board for the Eastern Shoshone Tribe, and he'll be followed I 
believe by Sandra C'Bearing, the Co-Chair from the Wind River 
Water Resource Control Board for the Northern Arapaho Tribe.
    Finally, the third panel, we will hear from three 
individual water users on the Wind River Irrigation Project. 
First, Will O'Neal, Eastern Shoshone Tribal Member, and a 
member of the Crowheart Bench Water Users Association, will 
testify, followed by Clinton Glick, Eastern Shoshone tribal 
member, and Gary Collins, Northern Arapaho Tribal Member and 
former Tribal Water Engineer for the Wind River Water Control 
Board.
    Now, again I want to thank the witnesses for taking time 
out of their schedules to testify today before this Committee 
and for working with my staff on the hearing. I know this 
hearing is a considerable interest to people in this community, 
and obviously it is not possible to have every single 
stakeholder testify; therefore, we will keep the hearing record 
open for two weeks so that all interested parties can submit 
written statements, which will be part of the official hearing 
record for the United States Senate. And then after the 
hearing, you can also speak with David Mullon here on my staff. 
He was, as you know, on Senator Thomas's staff, worked with 
Indian Affairs in this Committee, has a long, long history, 
knows this reservation well, and he can tell you how you can 
get your testimony and things to me. So since the written 
testimonies will be part of the record, I will ask each of you, 
please limit oral testimony to five minutes, which I know is 
sometimes hard to do, but I appreciate your efforts because we 
want to hear from a lot of people today.
    So with that, I invite the first panel to come forward and 
testimony to begin. Good morning.

STATEMENT OF JOHN ANEVSKI, CHIEF, DIVISION OF WATER AND POWER, 
                BUREAU OF INDIAN AFFAIRS, U.S. 
          DEPARTMENT OF INTERIOR; ACCOMPANIED BY RAY 
         NATION, DEPUTY SUPERINTENDENT FOR TRUST, WIND 
         RIVER AGENCY AND KARL HELVIK, ROCKY MOUNTAIN 
                  REGIONAL IRRIGATION ENGINEER

    Mr. Anevski. Good Morning, Mr. Chairman. My name is John 
Anevski, and I'm the Chief of the Division of Water and Power, 
Bureau of Indian Affairs, U.S. Department of Interior. I am 
pleased to provide the Department's statement on the Wind River 
Irrigation Project. Let me begin with a brief discussion of the 
history of the BIA irrigation program.
    The BIA has been involved with Indian irrigation since the 
mid 1800s starting with the Colorado River Indian Irrigation 
Project. The BIA is responsible for 15 revenue generating 
Indian irrigation projects with rivers delivering water to over 
700,000 acres of land with 6,200 miles of canals and drains 
with over 55,000 irrigation structures. Because of the specific 
statutory authorities, the BIA charges operating and 
maintenance for these projects to both Indian and non-Indian 
customers to reimburse the Federal Government for their 
individual operation maintenance costs, and the Wind River 
project is one of these. Most of these 15 irrigation projects 
receive little or no appropriated funds which means these 
projects operate much like non-profit utilities. All the BIA 
irrigation projects, including this project, are vital economic 
contributors to the local communities and regions where they 
are located.
    The BIA operates irrigation projects under various laws, 
regulations, and policy guidance including Chapter 11 of Title 
25 of the U.S. Code, part 171, Title 25 of the Code of Federal 
Regulations, Part 50, Chapter One, of the Indian Affairs Manual 
and the BIA Irrigation Handbook which was updated in August 
2008. Most projects also have extensive legislative histories 
including the Wind River Project which has over 50 
congressional appropriations and statutes. The BIA completed 
the operation and maintenance guidelines for the project in 
2008. The BIA also consults with Eastern Shoshone, Northern 
Arapaho Tribes' Joint Business Council and their staff and 
project water users on a regular basis regarding project 
matters.
    The project was authorized in 1905. The project has been 
operated and administrated by the BIA at Wind River Agency and 
consists of a total of 37,883 accessible acres. The project 
facilities include 67 miles of canals and laterals and 5,268 
irrigation structures. The Crowheart and LeClaire units were 
organized to administer some of the lands in the project. The 
Regional Irrigation Engineer, who is the officer in charge of 
the project, administers the project through the project 
manager who manages, supervises, and administers daily 
operations in making of the projects. The BIA's operation and 
maintenance of the project is funded entirely by investments 
appropriated from approximately 960 landowners and lessees, 
which include the tribes, individual Indians, and non-Indians. 
The current 2011 O&M assessment for the project varies from a 
low of $14 per acre at Crowheart Unit to $21 per acre at the 
LeClaire Unit with a majority of the project assessed at $20 an 
acre. The cost of operating and maintaining the project is 
approximately $715,000 annually. 67 percent of the land is 
Indian-owned and 33 percent is non-Indian-owned. The BIA 
recently completed several significant improvements of the 
project using congressional appropriated funds, including 
construction of our Wyoming and Montana projects.
    The BIA safety dams recently completed rehabilitation of 
Washakie and Ray Lake dams at approximately $15,000,000, and 
the BIA annually uses over $30,000 from this program to support 
ongoing safety dams to make and set the dams. In addition, 
congress earmarked $3.75 million in fiscal year 2006-2007 for 
irrigation construction of the project, and the state of 
Wyoming has matched these funds for the $3.5 million grant.
    The BIA is currently preparing for the upcoming irrigation 
season with deliveries anticipated to begin approximately May 
1st and end sometime in late September. Once the season is 
complete, there are several maintenance activities to be 
performed, including the installation and/or replacement of 
several new turnouts, cleaning drains, installation of numerous 
drains, culvert crossings, and replacement of a check structure 
and crossing.
    For the 2011 season, the BIA is scheduled to bill water 
users O&M assessments totalling $670,000. As the project has a 
significant number of fractionated lands, lands with multiple 
owners, approximately 1,978 bills will be under BIA's economic 
threshold of $25 and hence will not be mailed. In 2010 this 
amounted to just under $8,500. In recent years, project 
collection rate has hovered around 87 percent. However, in 
2010, the project experienced a 92 percent collection rate. The 
high historical collection rate has been in part due to the 
BIA's implementation of the Debt Collection Improvement Act.
    The BIA is implementing several new initiatives to address 
the challenges of the Wind River Project and several of its 
other projects. Some of these initiatives are in response to 
the recommended remedial actions from various reports by the 
Department's Officer Inspector General and Government 
Accountability Office. One recommendation made in these reports 
was the BIA should increase the level of technical support for 
project managers by putting these projects under the direct 
supervision of regional or central irrigation office staff or 
by implementing more stringent protocols for engineering review 
and approval of actions taken at the project. In February of 
2007, the BIA established policies to ensure adequate technical 
oversight and assistance it has given to project managers of 
the BIA irrigation projects. These policies set requirements 
for Central Office Division of Water and Power staff, Regional 
Irrigation Engineers, and Irrigation Project Managers to follow 
for approve oversight, program reviews, assistance, review and 
approval and standards.
    In January 2011, the Rocky Mountain Region realigned 
irrigation personnel at the agency level to be under the direct 
supervision of the region for a BIA pilot project. This 
realignment will more effectively utilize personnel and 
resources, streamline processes such as contract and 
purchasing, decrease technical oversight, and reduce 
administrative costs so more money can be directly spent on 
operation and maintenance. In addition to these managerial 
reforms, the BIA is working more closely with water users to be 
responsive to their concerns and giving water users a greater 
role in project operations.
    In July 2006, policy was established requiring projects to 
hold water users meetings at least twice annually. This was 
done in order to provide for more transparent operations and is 
a method of keeping water users informed of our activities and 
how we are spending their money. In addition to collecting more 
feedback on management performance, the BIA is encouraging and 
empowering water users to make O&M activities for all or part 
of our project. Currently here at Wind River, there is a 
memorandum of agreement in place with the Crowheart Bench Water 
Users Association and a tripartite agreement with the LeClaire 
Unit and Riverton Valley Irrigation District. Approximately 32 
percent of the successful acres on the project of O&M 
activities contracted out to these agreements. The BIA is also 
instituting several financial reforms to bring project revenues 
in line that needed expenditures.
    The BIA's policy, similar to that of the Bureau of 
Reclamation, is that revenues from irrigators must fund the 
annual O&M operation maintenance with BIA irrigation projects. 
Historically, the BIA operation and maintenance rate increases 
were based in part on potential economic impact to the water 
users. Over time, this tempering of rates has led to budget 
deficiencies which contributed to the decline of the project, 
and it's led to critical reviews of this practice by the Office 
of the Inspector General and the Government Accountability 
Office. In response of the concerns that have been raised, BIA 
has been working for several years to increase the assessment 
rate to a level that better represents the actual costs of 
operating and maintaining the project. To complement these 
financial reforms, the BIA has undertaken several initiatives 
to improve its maintenance management to ensure O&M assessments 
are spent effectively.
    Engineering condition assessments have been commissioned 
for most BIA irrigation projects with the Wind River scheduled 
to be completed in a 2008 (HKM Engineering Study). The 2008 
study estimated a replacement value of the project to be 
approximately $93,000,000. Deferred maintenance for the project 
is estimated at $28 million.
    In 2008, the BIA revised its irrigation regulations of 
Title 25, Part 171, of the Code of Federal Regulations. The 
revision includes two key features that will include all of the 
BIA irrigation projects, annual assessment waivers and 
Incentive agreement. The annual assessment waivers are designed 
to allow for an easy method to waive O&M assessments for lands 
to which the BIA cannot deliver water. The past regulations 
required BIA to bill water users, and the water users had to 
appeal the bill to receive a refund. Consent agreements provide 
incentives to potentially to lessees to bring idle lands into 
production. Many BIA projects have lands that have become idle 
or have not been farmed for many years. Consent agreements 
allow the projects to waive the irrigation O&M assessment for 
up to three years if the landowner or lessees make improvements 
to the land to bring them back into production. These 
agreements benefit the landowners by improving the value of 
their land and will increase the project revenues.
    I thank you for your time and for your consideration on 
this issue.
    I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Anevski follows:]

Prepared Statement of John Anevski, Chief, Division of Water and Power, 
         Bureau of Indian Affairs, U.S. Department of Interior
    Good morning Mr. Chairman, I am John Anevski, Chief, Division of 
Water and Power, Office of Trust Services, for the Bureau of Indian 
Affairs (BIA) in the U.S. Department of the Interior (Department). I am 
pleased to provide the Department's statement on the Wind River 
Irrigation Project (Project). Let me begin with a brief discussion of 
the history of the BIA's irrigation program.
    The BIA has been involved with Indian irrigation since the mid-
1800s starting with the Colorado River Indian Irrigation Project. The 
BIA is responsible for fifteen revenue-generating Indian irrigation 
projects that deliver irrigation water to over 700,000 acres of land 
through 6,200 miles of canals and drains with over 55,000 irrigation 
structures. Because of specific statutory authorities the BIA charges 
operation and maintenance (O&M) assessments on these projects to both 
Indian and non-Indian customers, to reimburse the Federal Government 
for their individual O&M costs (the Project is one of these). Most of 
these fifteen projects receive little or no appropriated funds, which 
means these projects operate much like a non-profit private utility. 
All of the BIA's irrigation projects, including the Project, are vital 
economic contributors to the local communities and regions where they 
are located.
    The BIA operates its irrigation projects under various laws, 
regulations and policy guidance, including chapter 11 of title 25 of 
the U.S. Code, part 171 of title 25 of the Code of Federal Regulations, 
Part 50, Chapter 1 of the Indian Affairs Manual, and the BIA National 
Irrigation Handbook (August 2008). Most projects also have extensive 
legislative histories, including the Wind River Project, which has over 
fifty congressional appropriations and statutes. The BIA completed O&M 
Guidelines for the Project in 2008. The BIA also consults with the 
Eastern Shoshone and Northern Arapahoe Tribes' (Tribes) Joint Business 
Council and their staff, and Project water users on a regular basis 
regarding Project matters.
    The Project was authorized in 1905. The Project is operated and 
administered by the BIA, at Wind River Agency, and consists of a total 
of 37,883 assessable acres. The Project facilities include 467 miles of 
canals and laterals and 5,268 irrigation structures. The CrowHeart and 
LeClair units were organized to administer some of the lands in the 
Project. The Regional Irrigation Engineer, who is the Officer-in-Charge 
of the Project, administers the Project through the Project Manager who 
manages, supervises and administers the daily operations and 
maintenance of the Project.
    The BIA's operation and maintenance of the Project is funded 
entirely by assessments from approximately 960 landowners and lessees 
which include the Tribes, individual Indians and non-Indians. The 
current (2011) O&M assessment for the Project varies from a low of 
$14.00/acre at the CrowHeart unit to $21.00/acre at the LeClair Unit 
with the majority of the Project assessed at $20.00/acre. The cost to 
operate and maintain the Project is approximately $715,000 annually. 
Sixty-seven percent of the land is Indian owned and thirty-three 
percent is non-Indian owned. The BIA recently completed several 
significant improvements at the Project using congressionally 
appropriated funds for construction on our Wyoming and Montana 
projects.
    The BIA Safety of Dams program recently completed rehabilitation of 
Washakie and Ray Lake Dams at a cost of $15 million. And the BIA 
annually uses over $30,000 from this program to support ongoing Safety 
of Dams maintenance at these dams. In addition, Congress earmarked 
$3.75 million in Fiscal Year 2006 and 2007 for irrigation construction 
at the Project and the State of Wyoming has matched these funds with a 
$3.5 million grant.
    The BIA is currently preparing for the upcoming irrigation season 
with deliveries anticipated to begin approximately May 1 and end 
sometime in late September. Once this season is complete there are 
several maintenance activities the BIA plans to perform, including the 
installation and/or replacement of several new turnouts, cleaning of 
drains, installation of numerous drain culvert crossings, and 
replacement of a check structure and crossing.
    For the 2011 irrigation season, the Project is scheduled to bill 
water users O&M assessments totaling $670,018. As the Project has a 
significant number of ``fractionated'' lands, lands with multiple 
owners, approximately 1,978 bills will be under BIA's economic 
threshold of $25, and hence, will not be mailed. In 2010, this amounted 
to just under $8,500. In recent years, the Project's collection rate 
has hovered around 87 percent. However, in 2010, the Project 
experienced a 92 percent collection rate. The high historical 
collection rate has been, in part, due to the BIA's implementation of 
the Debt Collection Improvement Act.
    The BIA is implementing several new initiatives to address 
challenges at the Wind River Project and several of its other projects. 
Some of these initiatives are in response to recommended remedial 
actions from various reports by the Department's Office of Inspector 
General and the Government Accountability Office. One recommendation 
made in those reports was that BIA should increase the level of 
technical support for project managers by putting these projects under 
the direct supervision of regional or central irrigation office staff 
or by implementing more stringent protocols for engineering review and 
approval of actions taken at the projects. In February 2007, BIA 
established policies to ensure adequate technical oversight and 
assistance is given to project managers of the BIA irrigation projects. 
These policies set requirements for Central Office Division of Water 
and Power staff, Regional Irrigation Engineers and Irrigation Project 
Managers to follow for improved oversight, program reviews, assistance, 
review and approval, and standards.
    In January 2011, the Rocky Mountain Region realigned irrigation 
personnel at the Agency level to be under the direct supervision of the 
Region for a BIA pilot project. This realignment will more effectively 
utilize personnel and resources, streamline processes such as 
contracting and purchasing, increase technical oversight, and reduce 
administrative costs so more money can be directly spent on O&M. In 
addition to these managerial reforms, the BIA is working more closely 
with water users to be responsive to their concerns and giving the 
water users a greater role in Project operations.
    In July 2006, policy was established requiring projects to hold 
water users meetings at least twice annually. This was done in order to 
provide for a more transparent operation and as a method to keep our 
water users informed of our activities and how we are spending their 
money. In addition to collecting more feedback on its management 
performance, the BIA is encouraging and empowering water users to take 
over O&M activities for all or parts of the Project. Currently, here at 
Wind River, there is a memorandum of agreement (MOA) in place with the 
Crowheart Bench Water User Association, and a tripartite agreement with 
the LeClair Unit and Riverton Valley Irrigation District. Approximately 
32 percent of the assessable acres on the Project have the O&M 
activities contracted out through these agreements. The BIA is also 
instituting several financial reforms to bring project revenues in line 
with needed expenditures.
    The BIA's policy, similar to that of the Bureau of Reclamation, is 
that revenues from irrigators must fund the annual O&M for BIA 
irrigation projects. Historically, the BIA tempered O&M rate increases 
based, in part, on the potential economic impact to water users. Over 
time, this tempering of rates resulted in budget deficiencies which 
contributes to the decline of the projects and has led to critical 
reviews of this practice by the Office of Inspector General and the 
Government Accountability Office. In response to the concerns that have 
been raised, BIA has been working for several years to increase the 
assessed rate to a level that better represents the actual cost of 
operating and maintaining the projects. To complement these financial 
reforms the BIA is undertaking several initiatives to improve its 
maintenance management and ensure O&M assessments are spent 
effectively.
    Engineering condition assessments have been commissioned for most 
BIA irrigation projects, with the Wind River study being completed in 
2008 (HKM Engineering Study). The 2008 study estimated the replacement 
value of the Project to be approximately $93 million. The deferred 
maintenance for the project is estimated at $28 million.
    In 2008, the BIA revised its irrigation regulations at title 25 
part 171 of the Code of Federal Regulations. The revision includes two 
key features that were included to benefit all of the BIA irrigation 
projects, Annual Assessment Waivers and Incentive Agreements. The 
Annual Assessments Waivers are designed to allow for an easy method to 
waive the O&M assessments for lands to which the BIA cannot deliver 
water. The past regulations required BIA to bill the water user and the 
water user had to appeal the bill to receive a refund. Incentive 
Agreements provide incentive to potential lessees to bring idle lands 
into production. Many BIA projects have lands that have become idle and 
have not been farmed for many years. Incentive Agreements allow the 
project to waive the irrigation O&M assessment for up to three years if 
the landowner or lessee agrees to make improvements to the lands to 
bring them back into production. These agreements benefit the land 
owner by improving the value of their land and will increase the 
Project's revenues.
    I thank you for your time and for your consideration of this issue. 
This concludes my prepared statement. I will be happy to answer any 
questions you may have.

    Senator Barrasso. Thank you. I appreciate you being here. 
Where are you headquartered?
    Mr. Anevski. I'm out of Washington, D.C.
    Senator Barrasso. I appreciate you taking the time to be 
here. Looking around to see who is joining us, I see there are 
a number of members of our select committee on tribal relations 
that are part of our state legislature that are here, and they 
are the ones that initially contacted me about trying to hold 
this hearing today. The Co-Chairmen are Kale Case and Dale 
McOmie and other State Senators are Paul Bernard and Wayne 
Johnson. I see Wayne here today and Representative Patrick 
Goggles, who lives here on the reservation, and as well as 
representative Jeff Stewart. So these are people who have been 
focused on this.
    I have a number of questions. I let you go on a little bit 
longer than five minutes because I think people want to hear 
all of this information. I have a number of questions, and it's 
kind of interesting because, you know, according to the BIA's 
budget justification for the fiscal year 2012, BIA requested 
about 12 million, 11.93 million, in appropriations for the 16 
of these revenue generating Indian irrigation projects. It's my 
understanding the BIA does not plan to direct any of the 
requested appropriations to the Wind River Irrigation Project 
for this fiscal year. Could you please help all of us here 
understand why the BIA does not plan to direct any 
appropriations from 2012, the 12 million, to the Wind River 
Irrigation Project.
    Mr. Anevski. Yes, sir. That fund is mostly for our 
mandatory payments which are by court order or legislative 
mandates that we have to fund on some irrigation projects. 
There's actually legislation and/or court orders that tribes 
have taken us to court that we have to pay for trust land that 
are not leased on those projects. So we are paying for those, 
and that's probably $3,000,000 or $4,000,000 of that fund. 
There's other irrigation related water rights that we're paying 
out of that fund. We do have to pay for the Navajo Indian 
Irrigation Project, which is approximately $4,000,000. We pay 
the operation and maintenance, and that again is by the 1962 
Act with the Navajo Indian Irrigation Project which requires us 
to pay that fund. And we also fund part of the irrigation 
billing and collection system for our 15 or 16 revenue 
generating projects. So the billing and collection and debt 
management is paid for by appropriated funds out of that 
account. So there's a lot of different things in that account, 
but in the past, back in the 1970s, 1980s, maybe early 1990s, 
some of those O&M funds were going out to some projects, but as 
the mandatory funds costs kept increasing, we lost a 
discretionary amount to that fund.
    Senator Barrasso. As I mentioned in the opening statement, 
one of the most ominous findings in the 2006 report was that 
the BIA had no long-term plan to address the deferred 
maintenance issue. So I understand to date we still have not, 
through the BIA, produced a long-term plan. When can we expect 
the Bureau of Indian Affairs to produce a long-term plan to 
address the deferred maintenance issues?
    Mr. Anevski. To be honest, we have been addressing it 
slowly. The critical deferred list and the HCAM reports, that's 
the first step, especially at Wind River here. We're actually 
working our way down the priority list as we have funding. We 
have that 3.7 million dollars earmarked for the projects so 
we've been using those funds. So the condition assessments were 
needed to help us develop the list. So all our projects we're 
working on developing the high priority items to fix the list. 
And the problem is, if we're just rely on the revenues, the O&M 
assessments, operation assessments, like the Wind River here, 
the full cost would be around 35 to $40 an acre versus the $20 
just to really go and rehabilitate it, which would be an 
economic disaster for all the farmers. So we're trying to limit 
our O&M rates, and we're slowly--you know, the appropriated 
funds we did receive we're slowly going to work on fixing the 
projects as best we can and keep the economics reasonable for 
farmers.
    Senator Barrasso. Words like slowly and working down the 
list, that's not something that the folks here--people in 
Wyoming kind of like when they see a problem, they fix it, and 
move onto the next thing. So I'm trying to figure out if you're 
going to come out with a long-term plan, and I was wondering 
what the process is going to be to put this long-term plan 
together. And this might have been 2006. I don't know if you 
were doing this job in 2006. We're now five years down the line 
when they said we're going to have a long-term plan. Can you 
help us along?
    Mr. Anevski. And that was the end of my first year there in 
D.C. Like I said, the condition assessments are the first part. 
And part of the IG reports talk about sustainability of the 
projects and recommend we do a sustainability study of which 
condition assessments are one part of it. But we still would 
have to look at the economics and a lot of other things which 
would cost us a lot of money which we don't have. We haven't 
been focusing, I'll be honest, and I guess that's something we 
should really focus on. My division, Central Office Division of 
Water and Power, will be looking at that and as we staff up 
will be working to develop a long-term plan.
    Senator Barrasso. Yes, I've noticed--I've only been in the 
Senate for about three and a half years, but I noticed there 
doesn't seem to be a lot of focus, throughout, a long-term plan 
for so many things. And I would recommend to you to try to get 
to that and move that up in the priority list of things that 
need to be done, because it's troubling when you read an 
assessment, even the findings from the 2008 condition 
assessment, it's nearly 77 percent of the project units 
reviewed received critical deficiency ratings, and you're 
talking 2008, now 2011. That could potentially mean a threat to 
the health and safety of the users, and those are the things 
that people are concerned about and say what is really going on 
here. This isn't the highest of the high up. In the written 
testimony, as I think you stated, there was a program with 
safety of the dams that completed the rehab of the Washakie and 
Ray Lake dams at a cost of about 15 million. What does the BIA 
plan to do to deal with the structure described with the other 
structures described in 2008 as really critically deficient? 
What can the BIA do in the interim to address these 
deficiencies while you're working on the long-term plan?
    Mr. Anevski. On the critical list, annually we work on the 
list, and we work with the tribes and water users and talk 
about what we're going to be doing. And we're using some of the 
appropriated funds, and we'll be working our way down the list 
to fix those issues.
    Senator Barrasso. I ask how it is, how do you involve the 
tribes and involve the users, and I think you said we work with 
the tribes. I'm curious as to what exactly you do so people who 
are here--
    Mr. Anevski. Well, we do have two water user meetings a 
year, there are two different locations each time at Crowheart 
and Ethete, and then the regional--the agency staff actually 
attends the tribal water engineers office meetings monthly, is 
it?
    Mr. Nation. Actually twice a month.
    Mr. Anevski. So we're meeting with them twice a month.
    Senator Barrasso. I wonder if you could introduce your two 
guests. Maybe everybody in the audience knows them, but if you 
wouldn't mind.
    Mr. Anevski. Ray Nation, he's the Deputy Superintendent for 
Trust at the Wind River Agency stationed in Fort Washakie. Karl 
Helvik is the engineer and also the officer in charge of the 
project, and he's located in Billings, Montana, at the Rocky 
Mountain Regional Office.
    Senator Barrasso. Just a couple of additional questions. 
The 2006 GAO report found that additional water storage and 
improved efficiency were needed to meet the demands for water; 
however, according to the BIA, operation and maintenance fees 
may not be used for capital improvements. So how does the BIA 
estimate the accommodation of additional water demands, and 
given that from 1926 when they stopped, they never really got 
the full completion of what was envisioned for this area?
    Mr. Anevski. Right. And I probably can't fully answer that 
question, but when we fix the dams, both dams were under 
restrictions that we could only store water to a certain level. 
So the Washakie dam now we can store water to the full height. 
And Ray Lake's, that was the same thing, had a restriction on 
it for many years, and now that it's been fixed we can store 
more water there. But adding more stored facilities, there are 
not really any plans for that.
    Senator Barrasso. Do you believe the Wind River Irrigation 
Project can meet the Wind River demands with out additional 
capital?
    Mr. Nation. No, Senator, it can't. Normally during the 
spring irrigation season, if we get a late runoff, the 
Crowheart Unit has to wait in order to build water in order to 
flush the system and get water out the 1st of May. The same 
with the Ray Canal, the Cooley system which is around Fort 
Washakie, depending on how spring runoff is, we have to wait 
for Washakie to build up storage. So depending on the spring 
runoff, when that comes, during the month of September normally 
Washakie reservoir is out of water and Washakie reservoir 
serves water to, like, around 20,000 acres. So the month of 
September, there's hardly any water in the system for roughly 
20,000 acres of land. We go to stock water. We do need storage 
in the Little Wind drainage for Ray Coolidge and subagency. 
Crowheart also during the month of September doesn't have a lot 
of water so it also needs storage some place upstream.
    To talk about your question on long-term planning, right 
now we've got kind of a three-year plan. We've got 12 major 
structures that are going to be rehabilitated using the state 
and the federal funds. But for long-term planning, that's going 
to take planning between the government and the tribes, because 
as you know, the BIA can't go to Congress and get money. We 
can't go to Wyoming and get money. Because of that and with the 
help from the tribes, that's how we got this $7,000,000 so the 
tribes are going to be part of this big planning process as far 
as rehabilitating the project. But for right now, like I said, 
our three-year plan is to do the 12 structures, possibly do 
some piping of some laterals, and then with our BIA staff, we 
plan on picking away at some of the other structures that are 
identified in the HCAM report that are priority, realizing that 
some of those structures we don't have the power to do so we're 
going to have to contract some of that out. So that's kind of 
our three-year plan, and then the long-term plan is going to be 
up to Congress and the tribes being able to lobby congressmen 
for more money.
    Senator Barrasso. Just some last follow-up questions on all 
of this--Karl, if you want to jump in on any of this, feel free 
to answer. I know there's concerns among the water users in 
this room about how the BIA spends operation and maintenance 
fees, and I know there's concerns that BIA spends some of these 
operation maintenance fees on administrative expenses that 
maybe ought to be covered under the agency's own 
appropriations. There are also concerns that the administrative 
expenses make up too high of a percentage of the fees as well. 
So can you please give the Committee a breakdown of how the BIA 
spends its operation and maintenance fees that it collects from 
the water users on this irrigation project?
    Mr. Anevski. I guess generally I'd like to point out the 
administrative fees, a lot of times people look at all salaries 
and a lot of the salaries are going to the people doing 
operation and maintenance, the ditch riders, the maintenance 
workers and stuff. So those really need to be split out that 
they're operation and maintenance versus admin. We do admin 
fees which is like a project manager and accounting techs 
running the office. I don't know if you wanted to----
    Senator Barrasso. Ray, do you want to----
    Mr. Nation. Yes, for some reason, there's people thinking 
that we spend a lot of money on salaries, and we actually do 
but realizing that under our operations----
    Senator Barrasso. Let the record reflect that they do.
    Mr. Nation. We do. Yes. We have four ditch riders that 
operate and maintain and deliver water.
    Senator Barrasso. On the ground.
    Mr. Nation. That's $134,000. As far as maintenance, we have 
two equipment operators, and they do nothing but run equipment, 
put in head gates, clean out head gates, put in laterals. And 
their costs are $112,000. Those are salaries, but those people 
are needed to operate the system. Our administrative staff is 
$147,000. That's for the project manager or civil engineer, 
whatever you want to refer to that person as, and also our 
accounting technician. Those two positions are hired. You have 
to have a supervisor in order to conduct day-to-day work 
schedules for water delivery and maintenance. So that's kind of 
why our salaries seem to be high, but it's not that they're 
getting paid to do nothing. They're out there delivering water 
and helping operate and maintain the system.
    Senator Barrasso. I think it's helpful for you to describe 
where the salaries go and water on the ground and people and 
different places. Karl, do you have anything that you'd like to 
add?
    Mr. Helvik. Yes, I'd like to add that the project manager 
of those two accounting technicians is necessary because we do 
the billing and collection for the entire project out to those 
ones that we contracted so we're providing that service to 
everybody.
    Senator Barrasso. Well, Ray, John and Karl, I appreciate 
you being here. Thank you for testifying. We'll make your 
written statements part of the record. If you have anything 
you'd like to add, any of the questions I've asked, please feel 
free to include that, and we'll keep the record open for the 
next two weeks. Thanks for being here.
    Mr. Nation. Thank you.
    Mr. Anevski. Thank you.
    Senator Barrasso. I'd like to call up our second panel, 
please. Thank you very much for taking time out of your 
schedule to be with us today. We're going to start, if you 
could, with Wes Martel, who is Co-Chairman, Eastern Shoshone 
Business Council, Eastern Shoshone Tribe of the Wind River 
Reservation, Fort Washakie.


         STATEMENT OF HON. WESLEY MARTEL, CO-CHAIRMAN, 
          EASTERN SHOSHONE BUSINESS COUNCIL, EASTERN 
          SHOSHONE TRIBE OF THE WIND RIVER RESERVATION

    Mr. Martel. Senator Barrasso, I'd like to start off by 
thanking you for holding this field hearing. I'd to thank the 
tribal relations committee from the state legislature for their 
support in this event coming to Riverton, and we really 
appreciate this.
    So Honorable Senator Barrasso, distinguished guests, and 
Committee staff and council, I come before you today to offer 
comments related to the Wind River Irrigation Project and other 
management problems. Let me begin by noting that for all things 
living on this great earth, water is our livelihood. As tribes 
we strive to maintain our culture and spiritual beliefs, and 
water is that special resource that sustains us and allows us 
to take our place destined to provide a positive future and 
hope and energy to our people.
    Government beginnings began with the signing of the treaty 
of 1863 whereby Shoshone tribe was designated over 44,000,000 
acres of land. This treaty was followed by subsequent treaties 
which narrowed our land base to the present day acres of 
approximately 2.2 million acres. Problems started when congress 
passed the Reclamation Act of 1902 whereby well over a million 
acres of this reservation was opened up for homesteading. This 
brought a morass of issues, challenges, and confronts to 
triable sovereignty, which we now confront on a daily basis. In 
1905 to the present, Bureau of Reclamation's attention and 
resources were devoted mainly to the homesteaders.
    Since 1905, over $77,000,000 was put into irrigation works 
and structures north of the Big Wind while approximately 
$6,000,000 has been put into the BIA project. The Indian moneys 
that were earmarked for Indian irrigation improvements were 
diverted to the reclamation fund thus the huge disparity. In 
addition, the Bureau of Reclamation exploited tribal resources 
without proper consent and approval, and the tribe just 
recently were awarded $33,000,000 for partial compensation of 
this misdeed. Another affront to the Federal/Tribal trust 
relationship is the Bureau of Reclamation's stance that section 
eight of the 1905 Act requires them to administer resources 
according to state law. Virtually all Tribes in this country 
oppose this infringement upon a valuable trust resource.
    Based on the history surrounding the BIA reclamation 
project, the Joint Business Council and the Wind River Water 
Resources Control Board have four major consequences of federal 
and state management on the Wind River Basin that require 
separate research and investigation. These are federal 
appropriations of tribal reserve water rights to serve non-
Indian hydropower interest, use of tribal funds to construct 
major federal and non-federal irrigation, storage and 
hydropower facilities on the Wind River Reservation, diversion 
of tribal revenues into the U.S. Treasury for use in paying 
costs of the irrigation project, O&M on existing canals and 
surveying costs of the Wind River Reclamation Project from 1906 
to 1942, and diversion of tribal water by the State of Wyoming 
based on use of Wyoming water law to declare surplus 
conditions, depriving tribal use of the water resource from 
1989 until the present.
    The federal and state use of tribal water and tribally 
funded irrigation and power facilities has deprived the tribes 
exercising the right to manage and use the water for their 
economic development and community well-being. In addition, 
these actions and diversion of tribal funds have resulted in 
environmental damage, economic damage, and lost opportunities 
for economic development. Research indicates that the users 
have overpaid O&M fees for the Wind River Irrigation Project. 
Initial legislation authorized the Riverton project in 1905, 
formerly the Wind River Irrigation Project which is no relation 
to the tribal system, specified that the tribes were only to 
pay $150,000 in a one-time payment for O&M fees for the tribal 
system. This could mean the tribe overpaid the O&M fees for the 
Wind River Irrigation Project by millions of dollars.
    My initial stint as an elected official of the Shoshone 
Tribe began in 1979, not too long after the state of Wyoming 
filed the Big Horn Adjudication of 1977. These water boards 
made us realize the extreme importance exercising tribal 
sovereignty wisely to protect our people and our future. 
Eventually, there are two major activities that must begin 
immediately in order to fully pursue a diversion of tribal 
water and funds. Research and strategy development on head 
water issues including economic, environmental, legal, social, 
cultural, and political impact of diversion of tribal water, 
continued strengthening and reorganization of the tribal water 
management function, including the Office of the Tribal Water 
Engineer and the Wind River Water Resources Control Board.
    We have been building our technical administrative 
capability to make stronger our tribal government and 
strengthen families and communities to bring progress and 
positive economic impact to our reservation and our region. As 
you well know, Wind River ag. and livestock, recreation, and 
tourism are sectors of the bulk of our economy. The further 
development of nonrenewable resources--wind, solar, geothermal, 
biomass, and hydropower allows us a major role to play in the 
energy security of this nation as well as reducing our 
dependence on foreign energy sources. The most important 
resource in our future growth is water.
    Our purpose today is to bring respect and dignity to the 
trust obligation. When our four fathers signed the treaties 
asserting our homelands, it was not a grant of rights to us but 
a grant of rights from us. The permanent homelands established 
by treaty were meant to uphold the intent to evolve over time 
and embark on a path assuring livelihood and advanced 
civilization.
    The GAO's report of July 3rd of 1996 and February 3rd, 
2006, address various issues surrounding the allocation and 
repayment of costs constructing federal water projects 
including the allocation of these costs among the projects' 
various purposes and irrigators of their share of the costs. We 
have testified over the decade at many sessions of the Senate 
Select Committee of Indian Affairs and now the Senate Committee 
of Indian Affairs all to no avail. It is my solemn wish that 
this distinguished committee with leadership and foresight 
begin and deliver a process to not only ensure that the 
sovereign Indian nations of this country have reliable sources 
of water but to acknowledge the trust obligation exists in 
relation to the most critical resource, water. Thank you for 
your time, sir.
    [The prepared statement of Mr. Martel follows:]

    Prepared Statement of Hon. Wesley Martel, Co-Chairman, Eastern 
  Shoshone Business Council, Eastern Shoshone Tribe of the Wind River 
                              Reservation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Barrasso. Thank you very much. Norman Willow is 
next, the Honorable Norman Willow is Council Member, Northern 
Arapaho Business Council, Northern Arapaho Tribe, Wind River 
Reservation, Fort Washakie, Wyoming. Thank you very much.

   STATEMENT OF HON. NORMAN WILLOW, COUNCIL MEMBER, NORTHERN 
 ARAPAHO BUSINESS COUNCIL, NORTHERN ARAPAHO TRIBE, WIND RIVER 
                          RESERVATION

    Mr. Willow. Greetings to all and all the fellow residents 
within the boundaries of the reservation. This affects us all, 
and I think we started out with irrigation. And it goes way 
back. Trying to make farmers out of us. They allocated land, 
allocated water, and we have a senior water right to this land 
here. And that's not being looked at like the way we want it to 
be looked at, and there was Indian appropriated money when they 
built these systems. We don't even have a right to vote on this 
irrigation systems, but we come here to ask the Federal 
Government to unstrangle us with the state and the state law 
that's been passed down onto us. The water is necessary for 
agriculture, ceremony, and healthy rivers.
    We have a decree where the court awarded 500,000 acre feet 
of water, with the State of Wyoming suing us but we won, you 
know. We can't use our water rights on whatever because of poor 
irrigation system. It's outdated, lack of maintenance, and our 
systems are 20 to 30 percent deficient. And in the interest of 
native irrigators have been promoted by the state that should 
be tribal members benefitting, and a former U.S. Senator, 
Wyoming Supreme Court Judge explained the state policy that you 
look at Coolidge, looked at LeClaire, there's a big water 
difference right before our eyes, full capacity, hardly any 
capacity on our side. And then the injustice we can see it 
right before our eyes as one failed policy, it has at least 
three fields a year without any compensations to the tribe, the 
senior water right holders.
    I have a little different view than all other, and we 
shouldn't take our system for under 638, because it's not even 
deliverable. Our lands are being reclassified because they're 
not irrigated, but that's because of the system. The system is 
not working. We can't accept the reclassification of the lands 
due to nondeliverable water. We're not using the land because 
water can't be delivered. Changing our class six to class one 
funding and no funding, the Federal Government needs to 
evaluate things reservation-wide, realize what's happening 
here. We need to see our manager, our water office. And, you 
know, this is my interpretation of what's been going on, and 
you have all these people reporting. Well, a lot of them isn't 
happening. They say they have big plans. You've got to excuse 
me, I'm recovering from cancer, and I had surgery. Anyway, you 
know, how can we compensate the senior water right, and that's 
the tribe's. We're being left out considerably. I know that 
these farmers, the irrigators all around here. They have a 
different view than I do, but, you know, we need to work this 
thing out. We need to be recognized a little more, and we need 
to be compensated because we are the senior water right holders 
here.
    And in closing, I don't want to take up too much time. I 
wish everybody well, and I would like to see some kind of 
compensation coming to the tribe, because a lot of it was done 
by Indian people, Indian appropriated money, yet we're not 
using it. Thank you.
    [The prepared statement of Mr. Willow follows:]

  Prepared Statement of Hon. Norman Willow, Council Member, Northern 
     Arapaho Business Council, Northern Arapaho Tribe, Wind River 
                              Reservation 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Barrasso. Thank you. And as you say, we want to get 
whole different viewpoints so I appreciate you expressing your 
thoughts and concerns here. Thank you.
    Our next witness is Mitchel Cottenoir, Acting Tribal Water 
Engineer Director, Wind River Water Resources Control Board for 
the Eastern Shoshone Tribe, Fort Washakie. Thank you.

 STATEMENT OF MITCHEL COTTENOIR, ACTING TRIBAL WATER ENGINEER 
                  DIRECTOR, WIND RIVER WATER 
        RESOURCES CONTROL BOARD, EASTERN SHOSHONE TRIBE

    Mr. Cottenoir. Senator Barrasso, I'd like to thank you for 
this opportunity to address this hearing on behalf of the Wind 
River Water Resource Control Board. According to the GAO report 
dated February 6th, the Wind River irrigation project was 
authorized for construction in 1905, but construction was never 
completed. Wind River Irrigation Project comprises of three 
storage facilities, 11 canals, and 377 miles of canal. These 
facilities provide water for 38,300 acres of which 67 percent 
is Indian owned and 33 percent is non-Indian owned.
    These 38,300 irrigated acres are assessed operation and 
maintenance fees to finance the irrigation project's operation, 
maintenance, of administrative functions. These assessments 
have historically been low, but over the last 20 years these 
rates have risen approximately 91 percent from a low of $10.90 
in 1991 to $20 in 2011. Even with the rising assessment fees, 
little rehabilitation efforts have been made. According to the 
1994 NRCE project assessment and plan, no project wide 
rehabilitation of the delivery system has occurred since the 
1930s. According to that study, huge deferred maintenance over 
many years, 60 percent or 1,200 structures were in need of 
repair or replacement, and 45 percent were 190 miles of canals 
and laterals needed repair or reconstruction. According to the 
study, structure failures were routine resulting in progressive 
loss of control of project water and the catastrophic failure 
of segments of the delivery system were coming.
    According to the 1994 NRCE project assessment and plan, due 
to the project's current configuration, it only has 66 acres of 
irrigated land per mile of canal. In comparison Midvale 
Irrigation District has over 160 acres per mile of canal. As a 
general guideline, Bureau of Reclamation suggests that 
irrigation projects in the region need to have at least 140 
acres of irrigated land for mile of canal to be economically 
self-sufficient. As a result of the poor delivery performance, 
that has contributed to the progressive deterioration quality 
and water users ability to pay assessment. It is apparent that 
the Wind River Irrigation System cannot be considered self-
sufficient.
    Conditions on the Wind River Irrigation Project sadly 
continue to deteriorate, and little has changed since the 1994 
NRCE report, the 2006 GAO report, and the 2008 HCAM assessment.
    In 2003, the Wyoming legislature passed House Bill 144. 
House Bill 144 allowed the tribes to participate in state 
funding toward water development projects. This bill is 
strongly supported by both the Joint Business Council and the 
Water Resource Control Board.
    In 2004 in order to facilitate the rehabilitation of the 
Wind River Irrigation Project, the Eastern Shoshone and 
Northern Arapaho Tribes through the efforts of the Wind River 
Water Resource Control Board applied to and were granted 3.5 
million dollar grant from the Wyoming Water Development 
Commission to aid in the rehabilitation of the irrigation 
structures that were in dire need of repair or replacement. 
This state appropriation was a 50 percent grant, required an 
additional 3.5 million in matching funds before the state funds 
could be utilized. Once again through the efforts of the Wind 
River Water Resource Control Board in conjunction with the 
efforts of Senator Mike Enzi, a federal appropriation of 3.72 
million dollars was secured in 2005 and 2006 as matching funds 
for 3.5 million and state funds.
    To date, four major irrigation structures have been 
replaced and another rehabilitated at a cost of 1.63 million 
dollars. These structures include the Johnstown and left-hand 
ditch, diversion structures on the Big Wind River, the left-
hand ditch wasteway, the Coolidge Canal Trout Creek diversion 
structure, and the Mill Creek Great Canal crossing structure.
    Currently there are two diversion structures on the Wind 
River that are in the design phase. These structures are the 
Ray Canal, South Fork, the Coolidge Canal, and Little Wind 
diversion structures. Incorporated in these designs, structures 
are fish ladders and fish streams. The fish passage will 
mitigate the loss of hundreds of thousands of fish to the 
irrigation system. The fish passage project is a combined 
effort between the tribes, the U.S. Fish and Wild Life Service, 
the Bureau of Indian Affairs, Trout Unlimited, and the State of 
Wyoming. It is hoped that these structures will be designed and 
ready for the fall 2011 construction season.
    In April of this year, the Wind River Water Resource 
Control Board elected engineering firms to design the remaining 
nine structures of the Wind River Irrigation Project priority 
list that was utilized to secure the federal and state funding. 
This list was compiled by the Bureau of Indian Affairs and the 
Office of Tribal Water Engineer. Depending on available funds 
as many of these structures will be replaced or rehabilitated. 
It is hoped that these structures will also be designed and 
ready for the fall 2011 construction season.
    Without the efforts of the Eastern Shoshone and Northern 
Arapaho Tribes through the Wind River Water Resource Control 
Board, the current rehabilitation of the Wind River Irrigation 
Project would not be occurring.
    Once the federal and state appropriations are completed, 
the Wind River Water Resource Control Board plans to pursue 
additional funding from both the Federal Government and State 
of Wyoming. The tribes and the Wind River Water Resource 
Control Board request the aid and assistance of both Senators 
Barrasso and Enzi and the Select Committee on Indian Affairs to 
help secure future funding on ongoing rehabilitation of the 
Wind River Irrigation System. As you know, estimates of the 
rehabilitation range from a low of $70,000,000 to a high in the 
range of $90,000,000. With that, I'd like to conclude, and 
thank you for allowing me to participate in this hearing.
    [The prepared statement of Mr. Cottenoir follows:]

 Prepared Statement of Mitchel Cottenoir, Acting Tribal Water Engineer 
 Director, Wind River Water Resources Control Board, Eastern Shoshone 
                                 Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Attachments
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Barrasso. Thank you. I appreciate you being here. 
Our next witness is Kenneth J.T. Trosper who is a member of the 
Wind River Water Resources Control Board for the Northern 
Arapaho Tribe, Fort Washakie, Wyoming.

  STATEMENT OF KENNETH J.T. TROSPER, MEMBER, WIND RIVER WATER 
        RESOURCES CONTROL BOARD, NORTHERN ARAPAHO TRIBE

    Mr. Trosper. I would like to thank you, Honorable John 
Barrasso, as well as other member of the Unites States Senate 
Committee on Indian Affairs for allowing us to bring in our 
issues concerning the Wind River Irrigation Project. My name is 
Kenneth Trosper. I serve on the Northern Arapaho side of the 
Wind River Water Resource Control Board.
    I would like to offer my testimony on the shortfalls of the 
irrigation project and the BIA in protecting the natural 
resources of the Wind River watershed. The project diversions 
divert more water than is called for simply to push the 
required water down the canals. This is done because of the 
terrible condition of the entire system. There has been little 
conservation attempts or major rehab other than what the water 
board and tribes have secured funding for.
    As a young man, I listened as my grandmother Margaret 
talked about happier times with my grandfather before the war. 
She told me of fishing the Little Wind and the great fishing 
the river provided. She talked of them sitting on the bank of 
their favorite fishing hole near Ethete and catching enough 
cutthroat trout to feed the whole family as well as others with 
nothing more than a willow pole, hook and line, and bait.
    Today's a different story. The native Yellowstone cutthroat 
trout have all disappeared in the Little Wind River. Cutthroat 
need cold, clean water which is something the lower Little Wind 
can no longer provide in the summer months due to the 
inefficiency of the Wind River Irrigation Project as well as a 
lack of storage and conservation.
    If this project is maintained as it should have been, 
upgraded as other projects are, provided conservation measures 
like other systems, perhaps then the Little Wind wouldn't be a 
warm tepid bacteria-laced stream in the summer but instead a 
clean, living river like the one my grandparents enjoyed.
    Another area of concern related to the inefficiency of the 
irrigation project is that of the native sauger. Although 
sauger were once found in most of the major Wyoming river 
basins, according to Craig Amadio of the Wind River Water 
sauger Study, the Wind River Reservation supports one of the 
few remaining genetically pure sauger populations in the 
western United States. And according to the study, the Wind 
River population is estimated at 4,300 fish. A recent Wyoming 
Game and Fish State Wildlife Action Plan lists the sauger as 
one of Wyoming species of greatest conservation need.
    This population is threatened because of the bottleneck 
created by the subagency diversion and the low flows below the 
diversion in the summer months. There is also the chance of 
potential kill-offs from flows insufficient to dilute any 
discharge or accidental contamination. The sauger is already 
lost above the diversion itself since it can no longer migrate 
past this diversion.
    Along with the sauger, above the diversion a fresh water 
mussel, lam sillic sole, important to our native culture was 
once found all along the Little Wind is now only found a few 
miles below the subagency diversion. The mussel uses the sauger 
to promulgate and like the sauger has disappeared above the 
subagency diversion and is threatened below. The Wind River and 
Little Wind River would benefit greatly from mainstream flows.
    Within the tribal water code, mainstream flow is listed as 
one of the 15 beneficial uses. Not only would fish and wildlife 
benefit but ground water recharge, municipal and domestic 
water, as well as water quality. A healthy viable river 
benefits everyone; however, without full rehab of the system, 
conservation, and future storage projects, it would be 
extremely difficult to maintain flows in the Little Wind to 
protect our fisheries while providing current irrigation needs. 
Thank you. That concludes my statement.
    [The prepared statement of Mr. Trosper follows:]

 Prepared Statement of Kenneth J.T. Trosper, Member, Wind River Water 
            Resources Control Board, Northern Arapaho Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Barrasso. I'd like to ask a couple of questions, 
and maybe we can start with Council leadership of the Tribes 
and then go to the specific folks about the water resources. 
Let's start with the two of you, Mr. Martel and Mr. Willow. For 
the record, there's been some discussion about the economic 
development components of this. Explain how the tribes 
specifically rely on the Wind River Irrigation Project to 
foster economic growth and generate income for the tribes, and 
either of you or both of you can answer.
    Mr. Martel. Well, right now, Senator, economic growth from 
the river comes through agriculture and livestock. Like I 
mentioned in my testimony, we have several producers and 
farmers and ranchers on the project, tribal members and non-
tribal members. We believe that storage is on the horizon, has 
to be, and in previous discussions we have had with the three 
irrigation districts a few years back, there were two issues we 
all agreed upon. And one of them was need to rehab the project 
and number two was storage. I think that's important when we 
sit down with Midvale, LeClaire, Riverton Valley, and agree on 
some issues that are going to be good for this basis. We 
believe that hydropower is going to be part of that economic 
future. We believe that water leasing in some form is going to 
be part of that economic progress. Recreation and tourism is 
not a major source of our economic development, but as we 
progress with the great country, we're blessed with recreation 
and tourism would be a big attraction.
    Senator Barrasso. Anything you want to add, Mr. Willow?
    Mr. Willow. Sorry, I don't have as much air as these guys 
do. Yes, our waters are being used to capacity due to the poor 
irrigation system. There's a lot of lands idle that could help 
the crops. That's one way we can have economic stability there, 
but it's just that the water is short on our side. And like 
tourism and recreation, recreation use, we just feel that we 
own all the water within the reservation and boundaries. You 
know, I feel personally that Boysen Dam and recreation there, 
we should be a rich tribe from the water coming off the 
reservation and going to the irrigators north of Big Wind. 
We're kind of looking at other structure that's needed because 
we are the senior right holders; yet, there's no compensation 
or no recognition that to the tribe. But due to poor irrigation 
system, we can't use water to full capacity. Thank you.
    Senator Barrasso. That follows my next question for both of 
you. The GAO report said a couple things. One was that the 
Bureau of Indian Affairs is not accountable to water users, and 
I'm wondering what steps the BIA might take to increase 
involvement of the water users. We heard from the last panel 
about meetings that are held here and their involvement. So if 
just you could share with us, is the BIA responsive to the 
needs and are their ways that we could improve upon that?
    Mr. Martel. Well, Senator Barrasso, you know, the 
management of the system on both sides of the river is not 
beneficial to the overall wide and stable use of our water 
resource. You know, the funding that has been coming down to 
the tribes, the BIA management of the system, sometimes there's 
no rhyme or reason to water levels in our reservoirs, and so we 
really have to take more control of that. Getting back to your 
previous question about the economic side of it, we have got to 
do that, and part of that is our future's land. We have over 
50,000 acres of future land that we think the Riverton east 
project, which is just downstream from us here in Riverton, is 
a very viable project. The Crowheart north and south projects 
are very valuable projects, and so in order to be able to get 
the full beneficial use out of our water, we have to make sure 
the systems are managed and administered properly. We just 
think there's got to be a lot more interaction between the BIA 
and the tribes. I for one think that we as tribes have got to 
take it to administrative wear-with-all to be able to take that 
system over and be able to manage it and administer it on our 
own. But, of course, like Mr. Willow mentioned funding is a 
very important part of that. So we need to make sure as we 
continue this dialogue not only with the Committee but also 
with our congressional delegation.
    Senator Barrasso. Mr. Willow, anything you'd like to add?
    Mr. Willow. Well, I think it would be more sufficient to 
have a water crew that we have to use the AFR on the 
reservations, but, yeah, there's a lot of things said here that 
aren't happening. You know, there's a lot of good thought but 
things are just not happening, and we're pretty frustrated. We 
continue to try to benefit our people in some way to use the 
water and to respect the water, you know, its life. But, 
everything revolves around water, and we're trying not to, I 
guess, disrespect water. But we're running into a lot of 
trouble, and it would be nice if we could administer all the 
water in the exterior boundaries but, like I said, put it to 
use.
    Senator Barrasso. Following with that, I think Mr. Trosper 
used the word ``shortfalls'' and ``terrible conditions,'' and 
it made me think about the idea that the BIA has not produced 
the long-term plan. What would you like to see in that long-
term plan for the system?
    Mr. Trosper. For myself overall, I would like to see the 
entire project needs to be redone from top to bottom. You have 
to have conservation. You know, the ditches need to be lined, 
head gates need to be fixed, structures need to be replaced in 
order for it to become as sufficient as federal projects across 
the river. Ours are not very efficient as they are, and then I 
would like to see that the tribes be given a chance to run this 
project so that we can eliminate some of these headaches 
created by the treasury, you know, garnishments and those kinds 
of things for people not using the water on idle lands that the 
BIA has trust responsibility to lease, and, you know, they 
don't do their job so the people get their wages. That's what 
I'd like to see is the project rebuilt, storage added, and then 
the tribe be given the chance to actually run this project.
    Mr. Cottenoir. I think as J.T. was saying, the entire 
project needs to be reworked, and somehow the BIA has to secure 
funding to help rehabilitate the system, whether it's federal 
appropriations or whatever, because currently what the O&M 
rates, even as they continue to increase, that doesn't provide 
enough funds to do the type of rehabilitation that is 
necessary. Like I said in my testimony, had it not been for the 
efforts of the Water Resource Control Board going to the State 
of Wyoming, WWDC, and also through efforts with Senator Enzi's 
office, these funds that we're currently using for 
rehabilitation on the reservation wouldn't even be here. We'd 
still be back having continued deferred maintenance and no 
major rehabilitation on reservation. So somehow this irrigation 
system is not self-sufficient. Somehow federal appropriations, 
whether it's earmarked funds or whatever, need to be secured in 
order for rehabilitation to continue because the thought of 
638-ing the system and taking over and running it, this is a 
delipidated system. We can't be expected to take it over and 
then rehabilitate it on our own. The funds just aren't there. 
Like I said, the BIA through their O&M fees, there just isn't 
the funds available for this kind of rehabilitation. So some 
kind of earmarking or federal funding needs to be secured to 
continue the rehabilitation process.
    Senator Barrasso. On the next panel, we're going to hear 
from a member of the Crowheart Bench Water Users Association, 
and it's my understanding that the association has a memorandum 
of understanding with the BIA to manage the Crowheart Wind 
River Irrigation Project. And do you think that Crowheart model 
or some components of it may be applied to other projects? It 
just seems the water users are happier with that approach.
    Mr. Cottenoir. I'd like to make a statement on that.
    Senator Barrasso. I'd like to hear from both of you.
    Mr. Cottenoir. But the Crowheart area and the lower 
irrigation system are completely different. What works up there 
doesn't necessarily work down here. The situation is completely 
different. It's a good model, and if we could divide irrigation 
system into districts of some sort, then, yes, that possibly 
could be a way to go about it. But currently as it is, the two 
systems are completely different, and what works in one area 
doesn't necessarily work in the other.
    Senator Barrasso. J.T., do you have more you want to add?
    Mr. Trosper. Well, yes, the system that they have set up, 
it works for them, I guess, for a couple reasons. One, because 
individual landowners and most of the land that is under that 
project is actually being irrigated and being used and is 
typically one or two person owned sections of land. Down in the 
Ethete area or the lower Arapaho area, the Coolidge and a lot 
of these lands are fractionated where you may have 200 people 
that have an interest in that land, and there's a lot of idle 
land. So those little groups taking a little lateral and 
forming a group would not work down in this area because, you 
may have 50 percent of the land and little lateral that may be 
idle. You have to get everybody's agreement to enter into this, 
and when, like I say, you may have hundreds of people on the 
lower tract of land instead of one or two that own it. But like 
he says, it's different situations.
    Senator Barrasso. One of the other things that caught the 
attention of everyone listening to your testimony, you said the 
1994 study which noted Wind River Irrigation Project had only 
66 acres of irrigated land per mile of canal?
    Mr. Cottenoir. That's correct.
    Senator Barrasso. So the rule of thumb, I think you said 
the Bureau of Reclamation is a minimum of 140 acres.
    Mr. Cottenoir. Yes.
    Senator Barrasso. To be self-sustaining? Other thoughts you 
had on that or maybe both of you as people in resource 
management would have, what we could do differently, what 
should go into a master plan, how we ought to be thinking about 
this
    Mr. Cottenoir. Well, that 66 acres, we've been visiting 
with both Gary Collins and Bill Russell----
    Senator Barrasso. And Gary is on the next?
    Mr. Cottenoir. Right. They're both former water engineers. 
Bill was an engineer for the Bureau of Indian Affairs. Over the 
years since that 1994 study, that acreage on those canals has 
probably decreased just because a lot of lands have become 
idle. That is due to nonprofitable operations that lease fees 
and irrigation assessments have just priced land out of the 
ability to pay. A farmer can probably buy hay cheaper than he 
can to lease the land and pay the irrigation assessment. So 
there's a lot of lands that have gone idle and pulled out of 
production. Just in 2010, there were approximately 10,000 acres 
of tribal land allotted and tribal acres that were assessed the 
irrigation assessment that were not receiving water. So those 
are lands that have been taken out, and the continuing rise in 
irrigation assessment can only compound that problem by pricing 
irrigators and ranchers and farmers out of business where they 
find that more economical to just purchase rather than actually 
grow their products.
    Senator Barrasso. Do you have anything you'd like to add, 
Mr. Trosper?
    Mr. Trosper. Well, it is true that there is a lot of 
fractionating of land. People cannot afford this anymore. I 
mean, the big farmers, they can afford it, but the small Indian 
landowner, he can't afford these with the realty prices. I've 
dropped my lease. It was cheaper for me to buy hay than to pay 
for it anymore and have it produced. Like he said, it was 
cheaper for me to just buy hay. The problem that I have, you 
know, with some of this on the natural resource side is that 
even as these lands are dropping out and not diverting that 
water, the diversion rates are dropping because the BIA still 
pump these ditches full because of the inefficiency of the 
system, they have to fill it up whether they have one person 
irrigating or a hundred. They have to fill these ditches up, 
and that's where environmental problems come for our fish.
    Senator Barrasso. Well, I appreciate all of you taking the 
time to be here, to share your thoughts. If there are 
additional things you'd like to add, we'd be happy to receive 
that. Thank you very much for being here. Now I would like to 
call the third panel. Welcome to all three of you. Thank you 
for being here. The order I have listed is, first, William 
O'Neal, Wind River Irrigation Project water user, member of the 
Crowheart Bench Water Users Association.

  STATEMENT OF WILLIAM O'NEAL, WIND RIVER IRRIGATION PROJECT 
  WATER USER; MEMBER, CROWHEART BENCH WATER USERS ASSOCIATION

    Mr. O'Neal. Thank you, Senator. On behalf of all our water 
users, I extend our thanks for being able to provide testimony 
about the irrigation system we have up there. The Crowheart 
Bench Water Users Association was founded in 2004 by landowners 
in the Crowheart area. The bench users associate services 
approximately 8,800 acres and is composed of Dinwoody reservoir 
and continue many miles of canals, laterals that are supplied 
by snow pack and glacier runoff of the Wind River Mountains. 
The Crowheart Bench Irrigation System and the A canal 
irrigation system, which is another 1,800 acre system utilizing 
water from the Wind River, together make up approximately 27 
percent of the total acreage managed by the irrigation office 
of the Bureau of Indian Affairs, Wind River agency. The 
decision to form the Crowheart Bench Association was driven by 
the discontent of the water users, increasing water operation 
and maintenance assessments, and the observed success of the A 
Canal Irrigators Association. Objectives of the Crowheart Bench 
Association upon its inception included, one, to be able to 
deliver water through the system as efficiently and cost 
effectively as possible; two, maintain a nearly 100-year-old 
system; number three, we'd like to ensure O&M moneys collected 
from Crowheart are used to achieve the above-listed objectives 
in the Crowheart area; four, we'd like to actively participate 
in the management of our system; and, number five, most 
importantly, we'd like to reduce the gap between O&M 
assessments and providing service.
    The Crowheart Bench Water Users Association is recognized 
in the memorandum of agreement with the BIA. This came about as 
a direct result by the efforts of, one, Crowheart water users; 
two, Indian Affairs Committee, here then under the late Senator 
Craig Thomas, Tribal Water Engineers Office, and Joint Business 
Council, and, of course, the BIA.
    This allows the Crowheart Bench to manage the system 
through a volunteer board of directors elected by the water 
users, serviced by the Crowheart Bench Irrigation System. The 
Crowheart Bench Water Users Board has been actively pursuing 
the above objective, and we have enjoyed the great deal of 
success in nearly every case. Current O&M assessments for the 
Crowheart Water Users is currently at $14 per acre as opposed 
to $20 an acre on the rest of the system. This reduced rate is 
a result of the more effective delivery of the local ditch 
rider hired on a contract basis. The ditch rider provides his 
own vehicle, covers his own expenses, and works with the 
Crowheart Bench Water Users board of directors to solve 
problems throughout the year that occur on the system. The 
ditch rider works for six days per week and is on call 24/7. 
Over the past 40 years, actual costs of water delivery to the 
Crowheart Water Users has been approximately $3 an acre. 
Approximately $4 per acre is being used for the maintenance and 
rehabilitation, and the remaining seven has been used for three 
administrator positions whose duties include billing, 
collections, and project management. Significant steps have 
been taken to rehabilitate the system, including cleaning many 
of miles of canals and laterals, replacement of turnouts, 
gates, structures, and head gates. Much of the work has been 
performed by local contractors which has enabled a great deal 
of work to be done for a fraction of the cost the BIA incurs. 
Water users have always volunteered a great deal of time and 
labor in priming laterals, pouring cement, and assisting with 
various repairs to the system.
    We want to understand this is probably not a fix-all for 
the entire project. It has and continues to work well for a 
variety of reasons here. One, we have a different water source. 
We have glacier runoff which in nature's form gives us a 
certain amount of storage. We have a little better canal 
conditions up there partly due to the work we've done 
ourselves, and, second, we have a little faster canal system. I 
think it keeps its condition a little better. We have smaller 
working group up there. We have a very strong ag. based economy 
there. Everyone there or the greater majority of people who 
irrigate there use ag. as a primary source of income. We don't 
have a business or anything outside of that to supplement 
income. So a lot of people work real hard at making this 
irrigation system work. That's our livelihood basically. Just 
to give you kind of an idea where we're at right now.
    Our next immediate obstacles that we wish to overcome are 
the administrative costs basically we incur. We're paying about 
half of that right now in administrative costs that go back. We 
feel that because of trust responsibilities, BIA to Tribal and 
allotted lands. We're going to have a hard time to cover that. 
Right now this project could run 100 percent by the water 
users' moneys, and as late as 1990 federal moneys were 
appropriated for construction of cement structures and 
researching ownership, of heirship/fractionated lands for O&M 
assessment on the Wind River Irrigation Project. These figures 
come from a prior project manager. We don't want to enjoy that 
luxury. We'd like to get back to us. We as landowners, 100 
percent of our properties fee or trust, feel we are forced to 
take on the trust responsibilities of the BIA that are paying 
100 percent of the administrative costs. We thank you and look 
forward to working with you, Senator Barrasso, and the Indian 
Affairs Committee.
    [The prepared statement of Mr. O'Neil follows:]

  Prepared Statement of William O'Neal, Wind River Irrigation Project 
      Water User; Member, Crowheart Bench Water Users Association 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Barrasso. Thank you very much, Mr. O'Neal. I would 
point out for everyone here that I go to a lot of senate 
hearings, and often the administration, they're gone before the 
other people testify. I will just tell you the people from the 
first panel, they're still here down in the front row 
listening, the BIA are listening to everything you say. So I 
think it's a great credit to them know that they had stayed to 
listen to everything that's being said here. With that, let me 
turn to Mr. Glick, who's a Wind River Irrigation Project water 
user. Thank you, Mr. Glick.

  STATEMENT OF CLINTON GLICK, RANCHER; WIND RIVER IRRIGATION 
                       PROJECT WATER USER

    Mr. Glick. Thank you, Senator John Barrasso, Vice Chairman, 
and Members of the Committee for the opportunity to testify on 
the Wind River Irrigation Project. I am a water user under the 
Wind River irrigation Project as I'm a member of the Glick 
family who runs a small cattle ranch.
    The management of the Wind River Irrigation Project has a 
lack of adequate funding and requires consistent 
administration, engineers, and bill collectors to succeed and 
be efficient. If and when consistent appropriated funds are 
available to pay for administration and management, more 
operation and maintenance assessed funds can be directed 
towards deferred maintenance. Eastern Shoshone and Northern 
Arapaho joint tribes appointed tribal organizations and 
proposed water users group need to be included in the 
coordinating and consulting of setting the program's operation 
and maintenance decisions to allow for and allow for improved 
planning. The Wind River Irrigation Project needs financial 
assistance through the construction to complete and rehab the 
system as to permit the ultimate development of a viable and 
sustainable irrigation project for our future generations.
    Department funding is derived from operation and 
maintenance charges per irrigatable acre. BIA calculates 
irrigation assessment rates, and in accordance with 25 CFR 
171.1(f), by estimating the cost of normal operation and 
maintenance at each irrigation project. The cost of normal 
support or benefit of the irrigation project activities means 
the expenses they incur to provide direct support of, and 
benefit for, the administration, operation, maintenance and 
rehabilitation. I'd like to emphasize the normal part in here 
where a lot of this administration rehab and stuff should not 
be included with our O&M charges because it's above and beyond. 
The administration payroll expenditures consume the majority of 
the operation funds and keep escalating with federal costs of 
living increases which are required for federal employees. I 
believe consistent appropriated funds for administration 
engineers and bill collectors and management would benefit the 
district whereas the overall irrigation district's budget would 
require less assessed charges per acre and nonetheless would 
allow more funds to be directed towards high priority areas.
    Deferred maintenance has been hindered by administration 
(engineers and bill collectors) expenditures. Water users, and 
BIA have reported operations of maintenance fees provide 
insufficient funding for project operations. I believe 
administration engineers and bill collectors costs should 
receive consistent appropriated funding since the irrigation 
district are considered to be BIA owned. Deferred maintenance 
has turned the BIA maintenance crew into emergency repair crew. 
All of the major canals have been ignored for so long they can 
hardly convey water to head gates.
    When funds are available, I am very agreeable that the 
diversion dams, major canals, and head gates are to be placed 
on top of the Wind River Irrigation System prior to this. At 
what time the irrigation system receives more maintenance and 
rehabilitation, the system will become more efficient and 
conserve water for other beneficial uses such as fisheries, 
wildlife, pollution control, recreation, cultural, municipal, 
domestic use and other users down the road.
    Along the same lines is Deferred Maintenance. Many of our 
U.S.G.S. Gauging Stations are no longer funded. In order to 
build a feasible resource management plan for our water 
systems, it's imperative to be able to track our water. This 
would be beneficial to the BIA, Eastern Shoshone and Norther 
Arapaho Tribes, State of Wyoming, Fremont County, our 
irrigation districts, and our local water lease.
    Coordination between the BIA irrigation department, BIA 
realty department, Easteren Shoshone and Northern Arapaho Joint 
Tribes, and appointed Tribal Organizations all need to work 
together on the government-to-government basis. Also, all of 
these entities need to include the proposed water users group 
as cooperators. This will enhance our planning to provide for 
educated decisions on actions necessary for the proper 
operation maintenance and administration of our irrigation 
project and lands.
    At one time, irrigation increased the value of our lands 
and cheapened the price of living in all our local towns within 
our Wind River Reservation and the state of Wyoming. Without 
the irrigation project and ag. communities, many industries and 
towns could not flourish. Anything which affects the success of 
the many achievements of the irrigation project and 
agricultural communities not only concerns those engaged in the 
pursuit but also the progress and welfare of the Wind River 
Reservation and the state of Wyoming. With the deterioration of 
our irrigation system, the high cost of assessed charges, our 
lands have become more of a burden rather than an asset.
    With the cattle prices at an all time high, it is now an 
optimum time to sell. I am afraid many of the existing ranchers 
and farmers will sell out. It will then take a considerable 
amount of funding to rebuild the local agricultural community. 
Right now, there is no feasible way for young families to 
embark into ranching and farming due to the amount of seed 
moneys required to start up. We are left with the major 
dilemma. I feel strongly that our irrigation project should 
receive consistent appropriate funding for administration, 
engineering, and building--bill collectors. This will allow us 
to salvage our situation by allowing more funding to be 
directed towards high priorities, such as key maintenance. 
Thank you for the opportunity to testify.
    [The prepared statement of Mr. Glick follows:]

  Prepared Statement of Clinton Glick, Rancher; Wind River Irrigation 
                           Project Water User
    Mr. John Barrasso, M.D. Vice Chairman and Members of the Committee:
    Thank you for this opportunity to testify on issues pertaining to 
Operation and Maintenance of the Wind River Irrigation Project.
    I am a water user under the Wind River Irrigation Project, as I am 
a member of the Glick family, who runs a small cattle ranch out side of 
Fort Washakie.
    The Management of the Wind River Irrigation Project has a lack of 
adequate funding, and requires consistent appropriated funds for 
Administration (Engineers and Bill Collectors) to succeed and be 
efficient. If and when consistent appropriated funds are available to 
pay for Administration and Management, more Operation and Maintenance 
Assessed Funds can be directed towards Deferred Maintenance. Eastern 
Shoshone and Northern Arapaho Joint Tribes, Appointed Tribal 
Organizations, and a Proposed Water Users Group need to be included in 
the coordinating and consulting of setting the program's priorities, 
operation, and maintenance decisions, to allow for improved Planning. 
The Wind River Irrigation Project needs financial assistance through 
the Construction to Complete and Rehab of the System period, as to 
permit the ultimate development of a viable and sustainable irrigation 
project for our future generations.
    The BIA Irrigation Department's funding is derived from Operation 
and Maintenance charges per irrigatable acre. BIA calculates irrigation 
assessment rates in accordance with 25 CFR 171.1(f) by estimating the 
cost of normal operation and maintenance at each irrigation project. 
The cost of normal operation and maintenance means the expenses they 
incur to provide direct support of benefit for and irrigation project's 
activities for administration, operation, maintenance, and 
rehabilitation. The Administration payroll expenditures consume the 
majority of the Operation & Maintenance funds, and keep escalating with 
the Federal Cost of Living Increases, which are required for Federal 
Employees. I believe consistent appropriated funds for Administration 
(Engineers and Bill Collectors) and Management would benefit the 
district, whereas the overall Irrigation District's Budget would 
require less assessed charges per acre, and nonetheless will allow more 
funds to be directed towards high priority areas.
    Deferred Maintenance has been hindered by Administration (Engineers 
and Bill Collectors) expenditures. Water Users and BIA have reported 
that Operations and Maintenance Fees provide insufficient funding for 
project operations. I believe Administration (Engineers and Bill 
Collectors) Costs should receive consistent appropriated funding, since 
the Irrigation Districts are considered to be BIA Owned. Deferred 
Maintenance has turned the BIA Irrigation Maintenance Crew into an 
Emergency Repair Crew. All of the major canals have been ignored for so 
long they can hardly convey water to the aging head gates.
    When funds are available, I am very agreeable that Diversion Dams, 
Major Canals, and Head Gates are to be placed on top of the Wind River 
Irrigation Systems Priority List. At what time the Irrigation System 
receives more Maintenance and Rehabilitation; the system will become 
more efficient and conserve water, for other beneficial uses such as: 
fisheries, wildlife, pollution control, recreation, cultural, 
religious, hydropower, industrial, municipal, domestic use, and other 
users down the road.
    Along the same lines as Deferred Maintenance, many of our U.S.G.S. 
Gauging Stations are no longer funded. In order to build a feasible 
Resource Management Plan for our water systems, it is imperative to be 
able to track our water. This would be beneficial to the BIA, Eastern 
Shoshone and Northern Arapaho Tribes, State of Wyoming, Fremont County, 
our irrigation districts, and our local water ways.
    Coordination between the BIA Irrigation Department, BIA Realty 
Department, Eastern Shoshone and Northern Arapaho Joint Tribes, 
Appointed Tribal Organizations all need to work together, on a 
government-to-government basis. Also, all of these entities need to 
include the Proposed Water Users Group as cooperators; this will 
enhance our planning to provide more educated decisions on actions 
necessary for the proper: operation, maintenance, and administration of 
our irrigation project and lands.
    At one time Irrigation increased the value of our lands and 
cheapened the price of living in all our local towns within the Wind 
River Indian Reservation and the State of Wyoming. Without the 
Irrigation Projects and Agricultural Communities, many industries and 
towns could not flourish. Any thing which affects the success and many 
achievements of the Irrigation Projects and Agricultural Communities, 
not only concerns those engaged in the pursuit, but also the progress 
and welfare of the Wind River Reservation and the State of Wyoming. 
With the deterioration of our irrigation systems, the high cost of 
assessed charges, our lands has become a burden rather than an asset.
    With the cattle prices at an all time high, it is an optimum time 
to sell. I am afraid many of the existing ranchers and farmers will 
sell out. It will then take a considerable amount of funding to rebuild 
the local Agricultural Community. Right now there is no feasible way 
for young families to embark into ranching and farming, due to the 
amount of seed monies required for startup, so we are left with a major 
dilemma. I feel strongly that our Irrigation Project should receive 
consistent appropriated funding for Administration (Engineers and Bill 
Collectors). This will allow us to salvage our situation, by allowing 
more funding to be directed toward high priorities, such as Key 
Maintenance. Thank you for the opportunity to testify.
    Attachment
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Barrasso. Thank you very much. It was very helpful. 
And now we have Gary Collins, Wind River Irrigation Project 
water user. Thank you.

STATEMENT OF GARY COLLINS, WIND RIVER IRRIGATION PROJECT WATER 
                              USER

    Mr. Collins. Thank you, Senator. It's an honor to be here 
with you, and I appreciate your time to come to this Senate 
field hearing. Many points that I would like to talk about have 
been addressed in part before; however, the history of the 
project was intended for the native Americans, Shoshones and 
Arapahos, as their homeland. And that focus has been changed 
over the time because we don't have a very large amount of ag. 
people in the business. So the intended purpose has been not 
adequately taken care of, and so the funding with regards to 
the irrigation project has been less than adequate. It hasn't 
been kept up with the times, and for a comparison, I would like 
to identify the Bureau of Indian Affairs project where there's 
about 66 acres per mile of lateral. Over on Midvale area, north 
of the Big Wind River and Bureau of Reclamation, also in the 
Interior Department, is nearly 160 acres of land per mile. So 
the economics look very dire for the tribal section because we 
have so many more miles to get an acre of land irrigated.
    So it's intriguing to me that under Interior, there's two 
segments, the Bureau of Indian Affairs and Bureau of 
Reclamation. And one is very successful and the other is not. 
So as we move forward, we have found that the funding for the 
irrigation project just wasn't going to happen through the BIA 
through their regular process of putting a budget together, 
going to Congress in their BIA budget. So what the tribes have 
done to secure funds is actually go to Washington D.C., speak 
with the Senators, Senator Thomas and Senator Enzi and others, 
Senator Metcalf. And so there was an effort by the Wind River 
Water Resources Control Board to do those things, and today we 
have nearly $7,000,000 that we've received. And a fair amount 
of that has been expended. Had we not done this, had we not 
been able to secure those funds, I believe today the system 
would not be operable. It would have been an economic disaster. 
We have gone to the diversion structures and rehabilitated 
those and taken away the bottlenecks, and this is a major 
challenge during drought conditions in the early part of this 
century. So the tribes have taken initiative to move forward 
with doing something to take the bottlenecks away to create an 
efficiency, even to the tune of hiring professional engineering 
firms to review the system and validate the inadequacies. We've 
done that with a firm, NRCC. We've also had HKM Engineering out 
of Billings. In addition to that, the Wyoming Water Development 
Commission has come out and reviewed and has corroborated with 
the number we've identified as 65 and 70 million up to 
$100,000,000 of rehabilitation money that's needed just to keep 
the system going. So the inefficiency of the system today has 
created more idle tracts of land, which means less dollars 
protected for the system, but it also has caused many families 
to not be in the ag. business anymore.
    The intention of our homeland was to be agriculturally 
based. Having not had that opportunity to create a homeland 
with agriculture, the fabric of the community has been 
unraveled because we don't have the core anymore. Like some of 
my colleagues mentioned earlier, it's too expensive to get into 
the business now that we start from scratch. You have to have 
something handed down from family to family or generational. So 
the money I mentioned to rehab the system doesn't include 
anything with regard to future lands.
    Mr. Martel mentioned Riverton east, Crowheart north and 
south. Those dollars in some estimation would be $3,000 an acre 
to put them at an irrigatable practice scheme. So the O&M as it 
is identified to sustain the system goes out to all landowners, 
and that's particularly a difficult situation for landowners 
who are elderly who are no longer in the irrigation system but 
they are a landowner, they are penalized because they have to 
pay for the water that they don't use. And if they get to the 
point where if they can't pay it, then through the debt 
collection act, their social security is impacted by this same 
effort. So 70 percent of the system being operated by non-
Indian ag. people, the elders with O&M charges who don't use 
the land, and many others actually are subsidizing the non-
Indian water user on the place that's their homeland. So 
there's a financial inequity there that causes a big burden for 
our tribal members. And I know we're trying to facilitate 
dealing with the fractionated interests, but there are many 
tribal members who are young who don't know what O&M charges 
mean and, of course, there becomes lien on any future income 
they might have through the system as they get older. So that's 
something we really have to look at is how do we address that 
O&M so it's not detrimental to the landowner. The area in terms 
of management is that even though the tribes have their 
adjudicated water rights, 500,000 plus acre feet of federal 
reserve right, we need instrumentation and tools to manage that 
water so we know what the tools are in different drainage.
    The Bureau of Indian Affairs has opted to not fund some of 
our gauging stations, and the concept that I was told, well, 
you have your water adjudicated. You don't need to know how 
much you have. You know already how much you have, but that's 
not applicable on a day-to-day basis of water management. And 
that has precipitated a letter of some dialogue with the state 
engineers office to the BIA that they will call in order that 
would be in breach of the Big Horn Decree if they don't fund 
those gauging stations. And so I think it's taking a heavy 
hammer of the State Engineer's Office to talk with the BIA in 
the central office about reestablishing our gauging stations. 
It was apparent last year during our flood event that we need 
gauging stations, and they weren't operable. So the gauging 
stations is a critical issue. I would hope that the Bureau can 
seek some way to fund those. There was some attempt to add on 
the cost of the gauging stations to the O&M rate. So it's easy 
pickings to go to the water users rather than go through BIA or 
federal entity up to the Congress for funding.
    So with that, I just want to mention that this whole 
scenario about the irrigation project here at Wind River has 
many times overreached a trust responsibility to the tribes, 
and we hope to rectify that. Thank you for your time.
    [The prepared statement of Mr. Collins follows:]

Prepared Statement of Gary Collins, Wind River Irrigation Project Water 
                                  User
History of the Project
Inadequate Funding to Sustain Project Viability
    Compared to Bureau of Reclamation to Bureau of Indian Affairs 66 
acres of land per 1 mile of lateral on BIA vs. 160 acres of land served 
per mile of Lateral on BOR.
Funding for Irrigation
    Rehabilitation on WRIP has been solely Tribal efforts to secure 
funds from Congress and Wyoming Water Development Commission.
    The inefficient system today has caused future ranchers and farmers 
to opt out due to costs O and M penalizes land owners that do not farm 
Tribes have secured professional engineering analysis of WRIP and have 
determined that $70,000,000 to $100,000,000 to rehabilitate the 
irrigation project , not including any ``futures land irrigation.''
    The ``fabric'' of the agriculture community is being destroyed due 
to excessive costs and inefficiency of the system.
    The TRUST Responsibility to the Shoshone and Arapaho Tribes has 
been breached.

    Senator Barrasso. I appreciate the comments from all of 
you. We hear about the BIA emergency response and that the land 
is now more of a burden than an asset. You know, looking at the 
GAO report that said the BIA at that point a number of years 
ago was not accountable, I'd like to ask all of you with the 
BIA sitting here, how can BIA increase water users in the 
project decisionmaking and how can they boost their 
accountability to you? I don't know, Gary, if you want to start 
and go down the isle.
    Mr. Collins. Well, Senator, I believe that had not the 
tribe established the Wind River Water Code, which secured the 
placement of Wind River Resource Control Board members that 
there would be a lot of things that would be left undone, and I 
believe the Water Resources Control Board as an entity of 
tribal government exercises its sovereignty in terms of looking 
after a very precious resource, and as we all know, some of our 
water impacts here in Wyoming will be driven by Los Angeles, 
Phoenix, Albuquerque and so forth, including Denver. So we need 
to be on top of our game. We need to have gauging stations. We 
need to have a professional and efficiently run irrigation 
system to create opportunity for our people and make the 
economy work here. We have, like I said, 10,000 acres that are 
idle, 30,000 acres are productive, but with more O&M increases, 
there's more idle tracts that come in because people can't 
afford it.
    Senator Barrasso. Mr. O'Neal, anything you'd like to add in 
order to make the BIA more responsible?
    Mr. O'Neal. Yes. I think we addressed that in Crowheart 
with the MOU. Before we had this in place, we were under the 
impression that we had no say whatsoever in our election. 
Whatever they came up with, that's what we paid, and that's 
basically wherever they deliver it to us, I don't care, most 
the time it was only one ditch rider in that particular area, 
hardly any service. Since we started this, we have a real good 
relationship working with the office.
    Senator Barrasso. Do you think that Crowheart model 
components apply to other units?
    Mr. O'Neal. There's some here that I think would fall in 
that category. I think it would have to be water user driven. 
We've offered expertise in two other areas, but with very 
little success. We still have a budget problem. We're not 
getting all the answers we want.
    Senator Barrasso. Mr. Glick.
    Mr. Glick. Yes, I'd like to add that I'd like to see the 
BIA and the irrigation department and the BIA realty department 
collaborate to help us with our land and water issues. They are 
tied together no matter if they are two different entities 
under the BIA. The leases and the irrigation charges are what 
cause a lot of the idle lands out there since nobody can afford 
to lease a piece of ground with the irrigation charges on this. 
I'd like to have the BIA irrigation department and the BIA 
realty department basically coordinate like on a government to 
government basis with Shoshone Arapaho tribes in the tribal 
appointed organization water resource control board. The BIA 
has, what, two meetings a year which I wouldn't consider that 
coordination. I'd consider that more of a cooperator. That 
doesn't really include us on some of the budget or the plans. 
I'd like to see the BIA representatives attend more of the 
Water Resource Control Board meetings so that they have a 
better feel for what the individual landowners are going 
through, what their thoughts might be on planning. That's about 
it.
    Senator Barrasso. Just for this panel, you've heard a lot 
today, a couple of hours, is there anything you think was not 
covered or anything I ought to hear? We would like to get 
everything in the Senate record that everybody wants to have 
said on this topic.
    Mr. Glick. I'd like to see congressional mandate to have 
appropriated funds to cover the administrative costs, the 
engineers, the portion of the costs for the payroll for the 
system irrigation operators, and possibly the maintenance crew. 
That way our assessed charges for the irrigatable acre, which 
is basically directed towards operation and maintenance, would 
have more funding that would hit the ground on maintenance and 
basically sufficient operation methods. On the portion where 
the USGS gauging stations, I think there could have been 
possibly 24 in operation five, six years ago, and now there's 
only four. I think that we need consistent appropriated funds 
for the USGS gauging stations to stay in function so that we 
can have the overall better resource management plan and if we 
could manage our resources better, we'll know where to keep 
track of our water, like, on the rehab part of the district if 
we can rehab most--just start up with mainly the main canal, we 
can work around and actually conserve more water for people 
down the road.
    Senator Barrasso. Ma'am, if you could identify yourself for 
the record and what you'd like to say.

STATEMENT OF SANDRA C'BEARING, CO-CHAIR, WATER RESOURCE CONTROL 
                 BOARD, NORTHERN ARAPAHO TRIBE

    Ms. C'Bearing. Okay. Thank you, Senator Barrasso. My name 
is Sandra C'Bearing, and I'm the Co-Chair for the Water 
Resource Control Board for the Northern Arapaho Tribe, and I'm 
pleased to be here today to give some testimony to the 
irrigation project.
    Senator Barrasso. We'll make your entire testimony if you'd 
like it part of the record, but if you'd summarize for us.
    Ms. C'Bearing. Okay. Sure. In November 2002, the Northern 
Arapaho General Council approved a resolution authorizing the 
Northern Arapaho Business Council to develop a water plan for 
the reservation water resources. The resolution cited the 
following reasons for its passage: The Wind River water passed 
by both general council in 1990 required the development of a 
plan for the management, administration, use, and protection of 
tribal water rights and provided guidance for doing so; that 
water development decisions could not be made without such a 
plan; and that future growth of the tribe required a 
development of an organized approach to meeting the needs of 
the tribal population. The economic development has been vital 
for both tribes because of the lack of a plan for protection 
and use of the reservation's resources and that real water 
supply problems were being experienced, including farmers, 
households, and water supplies.
    With that, in regards to the Wind River--the management of 
the BIA irrigation project, of considerable concern to all 
reservation leaders and residents in the rehabilitation and 
management of the BIA irrigation system and of the effective 
delivery of 1868 water to tribal water. Given the need for 
irrigation system rehabilitation, the overall goal of that 
research effort was to compare how tribal 1868 water is managed 
under the BIA system 25 CFR part 171 versus the Wind River 
Water Code, Chapter Nine, of the Eastern Shoshone and Northern 
Arapaho tribes. Among the many technical funding of this report 
are that the tribes are not receiving their full allotment of 
tribal 1868 water and the BIA system in 25 CFR. The tribes 
receive only 40 to 80 percent of the their 1868 water rights 
awarded in the Big Horn Decree, and then the tribal water code 
would deliver the full amount of the 1868 water. The BIA is not 
following its own procedures in implementing the 25 CFR part 
171, specifically the basis for assessing and application of 
operation and maintenance, O&M fees, delivery of a quantified 
water right, in this case tribal 1868 water, maintenance of 
irrigation delivery system, the operation of the project for 
maximum tribal benefit, and the prevention of waste. The BIA 
system requires a payment of the O&M fees are prerequisites for 
water delivery is physically inefficient and legally 
insufficient in delivering the 1868 water to the 1868 water 
right holders.
    While it might not be beneficial to contract the BIA 
irrigation project under public law 93-638, there are ways to 
exert a greater tribal and local control over the systems and 
tribal organizational office, like irrigation conservation 
districts. These organizational units can attract outside funds 
or other resources. And with that being that the largest block 
of tribal water is used for irrigation in the BIA Irrigation 
Project on the Wind River Indian Reservation in early 1990s, 
the BIA reclassified major portions of the Wind River 
Irrigation Project land from class six to class one lands, 
meaning an upgrade from lands that could not support themselves 
to lands that could. And this resulted in a loss of significant 
funds for maintenance activities and raised the individuals 
operation and maintenance fees.
    The tribes can only effectively use about 100,000 acre feet 
of the 250,000 acre feet of historical irrigation water to 
irrigation and cannot make use of the additional 250,000 acre 
feet of water awarded because of the following: The disrepair 
and rehabilitation needs of the system, the failure of the BIA 
to maintain the delivery and storage infrastructure and 
deferring maintenance, the lack of irrigation water management 
for the entire project, idle lands that do not receive water 
but are still charged irrigation O&M fees. Since the 1988 Big 
Horn Decree, the Bureau of Indian Affairs has wasted and 
mismanaged the tribes' federal reserve water rights. The BIA 
has failed to deliver the adjudicated water rights amounts to 
tribal land in each of the BIA projects on the reservation 
sometimes by more than half. The BIA has failed to protect the 
senior tribal water right even in the drought situation by 
failing to develop an irrigation and water management plan as 
required in 25 CFR. Management of the BIA system, including 
storage operations, result in the waste of tribal water to 
junior water users. The BIA is not allocating operation and 
maintenance funds collected from water users for maintenance of 
the project.
    Since the 1988 Big Horn Decree, the Bureau of Reclamation 
has failed to make any adjustments in the water management 
operation to account for 500,000 acre feet of the tribes 
federal reserve water rights. This has resulted in the 
documented diversion and storage of more than 2.1 million acre 
feet of federal reserve water rights for use or sale in 
irrigation and power generation. The Bureau of Reclamation has 
contributed this diversion in all year types including drought 
without any discussion, advice, nor consent of the tribes. This 
has prevented the tribes from getting any benefit from their 
water and has stifled resources planning for and the use of the 
senior water right, a valuable resource in the Wind River 
Basin. The ultimate goal of the tribes is full ownership and 
management of the operational authority, several factors make 
it unwise at this time. The estimated rehabilitation needs 
range from 50 to $70,000,000. The lack of sufficient management 
capability to manage the project given the current organization 
and the lack of water management planned for the irrigation 
project and the lack of BOR BIA collaboration to protect the 
tribes' senior water right and how to compensate for the volume 
of water wasted since 1868 Big Horn Decree resulting in the 
failure of the federal trustees to protect the federal reserve 
water right.
    And to conclude, I'd like to include some recommendations 
that you investigate the BIA BOR's waste and abuse of federal 
reserve water rights of the Northern Arapaho Eastern Shoshone 
tribes and conduct an investigation of the BIA's land 
reclassification and assess the economic productivity of the 
WRIB lands, conduct a feasibility study for the rehabilitation 
of the irrigation project whose focus is to reduce cost by 
investigating different water management alternatives for 
storage and delivery, irrigation districts, rotation, and 
scheduling, and land modifications to increase efficient and 
storage. As part of the study, we would like to include a 
development of long-term phase program where the tribes enter 
organizations of water users own, operate, and manage the 
project. And lastly investigate key questions related to the 
construction of Riverton reclamation project of the 1905 act 
lands after meeting with the tribal leaders to present 
information.
    [The prepared statement of Ms. C'Bearing follows:]

   Prepared Statement of Sandra C'Bearing, Co-Chair, Water Resource 
                 Control Board, Northern Arapaho Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Barrasso. Thank you very much for your testimony. 
Thank you very being here. Mr. Collins, there was a last 
comment, and I think you were wanting to say one last thing.
    Mr. Collins. Yes. Thank you, Senator Barrasso. I believe 
the facts are laid out before all of us as to what we have done 
and haven't done. So I think there needs to be emphasis added 
to the BIA to sustain their trust responsibility. Additionally, 
I believe the tribes can move forward with the Wind River Water 
Resources Board to protect their natural resources. So there 
needs to be some government-to-government discussions there, 
more collaboration, and certainly if we could receive 
additional funding in whatever manner, preferably go through 
the chain of issues with the BIA, but having seen that not 
working, we would probably still approach the congressional 
congress for those kind of issues like we have been. But we are 
woefully inadequate in sustaining our economy. That's the big 
thing. It's not about money fixing the system; it's about money 
fixing the system and creating opportunity to maintain and 
sustain the community so we, too, can enjoy the economic 
benefits.
    Senator Barrasso. Well, thank you. I want to thank all of 
you from this panel and I want to thank everyone who came to 
testify today. I want to thank every who has attended the 
meeting and taking your time to participate. I'm grateful that 
Central Wyoming College made this wonderful facility available 
to us, and specifically I want to thank our State of Wyoming 
Select Committee on Tribal Relations, Kale Case and Dale McOmie 
who are still here. They've been here the entire duration of 
this hearing. Thank all of you. The record will stay open 
another two weeks. Anyway, with that, this hearing is 
adjourned.
    [Whereupon, the Committee was adjourned.]
                            A P P E N D I X

 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 ______
                                 
Prepared Statement of Owen Goggles, Northern Arapaho Tribal Member and 
                        Honored Vietnam Veteran
    As a landowner and shareholder, I am very upset and unsatisfied. I 
was unaware that there are three (3) administrators and during the 
meeting that was conducted at CWC, the three (3) administrators had no 
future plan. At this time, we, I do not receive any information from 
the BIA here on the Wind River Reservation. When the few of us do 
attempt to obtain any information as a person, tribal member, 
individual, etc. we are continually given the run around. Why do I have 
to pay more into irrigation for no kind of water use? As it is we are 
already paying enough sovereignty tax into the state. Not to mention 
our land lease is unaffordable for the native use. I had stated to 
personnel about my Vietnam experiences with the value of clean, clear 
water. We Native Americans have hardly any say with our water. The 
people's voice should be heard. We could have the wrong people speaking 
for the Arapahos and Shoshones. As a Vietnam Veteran, I've seen many 
young men die. Their voices will never be heard. Some of the Little 
Wind River has contamination from uranium and maybe radiation. I live 
approximately 100 yards from this contamination. The Big Wind River 
becomes a trickle during the summer months. I understand that a non-
native diverted the flow of water from his personal property years ago. 
The river water could be run off from used irrigation water and human 
waste. Again these are just of few of my comments and concerns 
regarding the water and irrigation problems.
    I thank you for your time to read this,
                                 ______
                                 
 Prepared Statement of Edward Leonardi, President, Double L Ranch, Inc.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Prepared Statement of Brett, Edna, Lori, and Russell Weber
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                   Prepared Statement of Tom Norwood
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Prepared Statement of Ray Parkhurst
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
